Report No. SPO-2011-010                 September 30, 2011




               Special Plans and Operations



      Assessment of DOD Wounded Warrior Matters -
                      Fort Drum
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
  DEPUTY UNDER SECRETARY OF DEFENSE FOR WOUNDED WARRIOR CARE
    AND TRANSITION POLICY
  ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
  ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
DIRECTOR, JOINT STAFF
COMMANDANT OF THE MARINE CORPS
  MEDICAL OFFICER OF THE MARINE CORPS
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS
DEPUTY CHIEF OF STAFF, G–1, U.S. ARMY
THE SURGEON GENERAL/COMMANDER, U.S. ARMY MEDICAL COMMAND
COMMANDING GENERAL, NORTHERN REGIONAL MEDICAL COMMAND
COMMANDER, WARRIOR TRANSITION COMMAND
  COMMANDER, FORT DRUM MEDICAL DEPARTMENT ACTIVITY
SURGEON GENERAL OF THE NAVY AND CHIEF, BUREAU OF MEDICINE AND
  SURGERY
SURGEON GENERAL OF THE AIR FORCE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
INSPECTOR GENERAL, OFFICE OF THE SECRETARY OF VETERANS AFFAIRS
GOVERNMENT ACCOUNTABILITY OFFICE

SENATE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
SENATE COMMITTEE ON ARMED SERVICES
SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
HOUSE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
HOUSE COMMITTEE ON ARMED SERVICES
HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
Report No. SPO-2011-010 (Project No. D2010-D00SPO-0209.001)                            September 30, 2011



                     Results in Brief: Assessment of DoD
                     Wounded Warrior Matters – Fort Drum

What We Did                                                  •   Ensure that Fort Drum Warriors meet the
                                                                 eligibility criteria for entry or attachment
We assessed whether the programs for the care,                   to the WTB
management, and transition of Warriors in                    •   Ensure that Fort Drum provides a
Transition at the 3rd Battalion, 85th Mountain                   positive recovery and transition
Infantry Regiment at Fort Drum, New York,                        environment for its Warriors
(hereafter the Fort Drum Warrior Transition
                                                             •   Ensure that timely access to specialty
Battalion [WTB]) were managed effectively and
                                                                 medical care is available for Fort Drum
efficiently. Specifically, we evaluated the
                                                                 Warriors
missions, policies, and processes in place to
                                                             •   Develop a program for high-risk
assist Warriors in Transition with their return to
                                                                 medication management, education,
duty status or transition to civilian life, and the
DoD programs for Warriors affected with                          training, and safety
Traumatic Brain Injury and Post Traumatic                    •   Provide Fort Drum Warriors with a
Stress Disorder.                                                 program of productive activities that
                                                                 positively impact their transition
                                                             •   Develop procedures to ensure that
What We Found                                                    Warrior Comprehensive Transition Plans
We identified two initiatives implemented at the                 and Triad of Care processes are
Fort Drum WTB that we believed to be                             beneficial and accessible to Warriors
noteworthy practices for supporting the                      •   Develop comprehensive training
comprehensive care, healing, and transition of                   programs for WTB staff, civilian medical
Warriors.                                                        personnel, and other civilians supporting
We also identified a number of significant                       Warriors
challenges that we recommend the Commanding
General, 10th Mountain Division; Warrior                  Management Comments
Transition Command (WTC), MEDDAC, and                     and Our Response
WTB leadership address, which if resolved,
should increase program effectiveness.                    The Acting Commander, 10th Mountain
                                                          Division, Commander, Fort Drum Medical
Finally, we recognized that it was important to           Department Activity; and the Commander,
give a voice to the Warriors themselves. We               Warrior Transition Battalion concurred with a
suggest that the WTC, MEDDAC, and WTB                     number of our recommendations. However,
leadership and staff consider Warrior comments,           there are several recommendations that were not
as discussed in this report, so they are cognizant        addressed and several that require additional
of the Warriors’ views and concerns and can               comments. Therefore, we request that the
take appropriate action.                                  Commanding General, Northern Regional
                                                          Medical Command, and Commander, Warrior
What We Recommend                                         Transition Command provide additional
We recommend that the Commanding General,                 comments to the final report by November 7,
10th Mountain Division, WTC, MEDDAC and                   2011. Please see the recommendations table on
WTB leadership:                                           the back of this page.
   • Develop an operational definition of a
       successful transition end state for Fort
       Drum Warriors



                                                      i
Report No. SPO-2011-010 (Project No. D2010-D00SPO-0209.001)                    September 30, 2011




Recommendations Table
      Management                     Recommendations                  No Additional Comments
                                    Requiring Comment                       Required
Commanding General,          B.1.1., B.1.2., B.1.3.
Northern Regional Medical    B.2.1., B.2.2., B.2.3.
Command                      B.3.1., B.3.2.
                             B.4.1., B.4.2.
                             C.3.1., C.3.2., C.3.3., C.3.4., C.3.5.
                             C.7.1., C.7.2., C.7.3., C.7.4.
                             C.11.2.a., C.11.2.b.
                             C.12.1., C.12.2.
Commander, Warrior           C.4.1., C.4.2.
Transition Command
Commander, 3rd Battalion,                                             C.1.1., C.1.2.
85th Mountain Infantry                                                C.2.1.
Regiment                                                              C.5.
                                                                      C.6.
                                                                      C.8.
                                                                      C.9.
                                                                      C.10.2.a., C.10.2.b.
                                                                      C.11.1.




Please provide comments by November 7, 2011.




                                              ii
Table of Contents

RESULTS IN BRIEF                                                                I
INTRODUCTION                                                                    1
 Objectives                                                                     1
 Background                                                                     2
PART I - NOTEWORTHY PRACTICES                                                   9
 Observation A. Noteworthy Practices - 3rd Battalion, 85th Mountain Infantry
 Regiment (Warrior Transition Battalion)                                       11
PART II - CHALLENGES                                                           15
 Observation B. Challenges - Fort Drum Medical Department Activity             17
 Observation C. Challenges - Fort Drum Warrior Transition Battalion            30
PART III - WARRIORS SPEAK                                                      65
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS                                   85
APPENDIX B. SUMMARY OF PRIOR COVERAGE                                          89
APPENDIX C. REPORTING OTHER ISSUES                                             91
APPENDIX D. ARMY GUIDANCE FOR WARRIOR TRANSITION
UNITS                                                                          93
APPENDIX E. MANAGEMENT COMMENTS                                                95
This Page Intentionally Left Blank
Introduction
Objectives
The broad objective of this ongoing assessment is to determine whether the DoD programs for
the care, management, and transition of recovering Service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom were managed
effectively and efficiently. 1
Specific Objectives
Our specific objectives were to evaluate the missions, the policies, and processes of:
    •   Military units, beginning with the Army and Marine Corps, established to support the
        recovery of Service members and their transition to duty status (Active or Reserve
        Components) 2 or to civilian life; and
    •   DoD programs for Service members affected with Traumatic Brain Injury (TBI) and Post
        Traumatic Stress Disorder (PTSD).
Assessment Approach
This is the second of multiple assessments that will be conducted at Army and Marine Corps
Warrior transition units. To obtain unbiased data, not unduly reflecting the views of either the
supporters or detractors of the program, we used a two-pronged approach to select our
respondents. First, we determined how many Service members were required to be interviewed,
then we applied a simple random sample approach to determine the Service members we should
interview, as described in Appendix A. We subsequently performed interviews with Army
wounded, ill, and injured personnel, to include 96 individual interviews with Soldiers and
26 additional Soldiers in 5 group interviews.

Second, we interviewed all available members of the key groups at each site responsible for the
Warriors’ care. Specifically, we conducted meetings and interviews during our 2-week visit at
Fort Drum that included unit commanders, staff officers, and Warrior Transition Battalion
(WTB) military staff, as well as civilian staff and contractors. A list of the meetings conducted
at the Fort Drum Medical Department Activity (MEDDAC) 3and the 3rd Battalion, 85th Mountain
Infantry Regiment, which is the Fort Drum WTB, 4 is shown in Appendix A, along


1
  Subsequent to our project announcement and at the initiation of our fieldwork, the Army’s Warrior Transition
Command (WTC) informed us that approximately 10 percent of the Soldiers assigned or attached to Warrior
Transition Units (WTUs) were combat wounded.
2
  The Army is comprised of two distinct and equally important components, the Regular Army (the Active
Component) and the Army National Guard and the Army Reserve (the Reserve Components).
3
  MEDDAC refers to all U.S. Army Medical and Dental Activity including ancillary, administrative and logistics
support.
4
  During our site visit, the WTU at Fort Drum had the provisional title of 3rd Battalion, 85th Mountain Infantry
Regiment in lieu of calling themselves a WTU. Leaders believed that if titled like a traditional infantry unit,
Warriors would feel a sense of belonging with the 10th Mountain Division, which is the division to which most of
the Fort Drum Warriors were assigned before becoming wounded, ill, or injured. To maintain continuity of
reporting across all WTUs, we will refer to this unit as the “Fort Drum WTB” or “WTB” in this report.




                                                        1
with the scope, methodology, and acronyms of this assessment. The prior coverage of this
subject area is discussed in Appendix B.

The observations and corresponding recommendations in this report focus on what we learned at
Fort Drum. In addition, noteworthy practices that may have application at other Warrior
Transition Units (WTUs) are also described.

Additional reports and/or assessments may be subsequently performed by the DoD Office of the
Inspector General on DoD Wounded Warrior matters or other related issues as they are
identified. Any specific issues, concerns, and challenges that we identified at Fort Drum that
may have to be addressed in future assessments and/or reports are discussed in Appendix C.

Background
According to the Army’s Warrior Transition Command (WTC), there are approximately 10,000
Warriors in Transition in the Army WTUs. Close to 1,000 were wounded in combat,
approximately 2,100 were injured or became sick and were treated while deployed in Southwest
Asia, approximately 2,000 recently returned from a deployment prior to entry into a WTU but
were not treated during the deployment, and approximately 4,900 had never been deployed. 5

Army Guidance
Army guidance for the care and management of Warriors in Transition (hereafter, “Warriors”) is
contained in the “Warrior Transition Unit Consolidated Guidance (Administrative),” March 20,
2009 (hereafter, “Consolidated Guidance”). The purpose of the Consolidated Guidance is to
prescribe the policies and procedures for the administration of Soldiers assigned or attached to
WTUs. The Consolidated Guidance addresses items such as eligibility criteria for a Soldier’s
assignment or attachment to a WTU; staffing ratios of Army care team members; and other
administrative procedures for Soldiers being considered for assignment or attachment to a WTU.
For additional information on the Consolidated Guidance, see Appendix D for summary
description.

Warriors in Transition
The Army’s wounded, ill, and injured Service members are referred to as Warriors in Transition.
According to the Consolidated Guidance, the Warrior in Transition mission is:
                   I am a Warrior in Transition. My job is to heal as I transition back to duty or
                   become a productive, responsible citizen in society. This is not a status but a
                   mission. I will succeed in this mission because I am a Warrior.

Warrior Transition Units
In 2007, the Army created 35 WTUs at major Army installations primarily in the continental
United States (CONUS) but also at other sites outside CONUS to better support the recovery
process of the Army’s wounded, ill, and injured Service members. Army WTUs vary in size and


5
    Figures provided by the Army WTC, Program Performance and Effectiveness Branch.




                                                           2
functionality and were established either as brigades, battalions, companies, or community-based
units. 6 As of May 2010, there were 26 WTUs located in CONUS, 1 in Hawaii, 2 in Alaska, and
3 in Germany, as well as, 8 community-based WTUs located in CONUS and 1 in Puerto Rico.

The commander of each WTU reports to the commander of the Military Treatment Facility
(MTF) that is co-located with the WTU. Army WTU care teams consist of, but are not limited
to, military staff, physicians, nurses, behavioral health specialists such as psychologists and
social workers, occupational therapists, and numerous outside organizations offering resources to
the Warriors in support of mission accomplishment.

WTUs provide this critical support to Soldiers who meet the eligibility criteria, which generally
require that: (1) a Soldier has a temporary profile, 7 or is anticipated to receive a profile, for more
than 6 months with duty limitations that preclude the Soldier from training for or contributing to
unit mission accomplishment, and (2) the acuity of the wound, illness, or injury requires clinical
case management to ensure appropriate, timely, and effective utilization and access to medical
care services to support healing and rehabilitation. 8

Triad of Care
At the nucleus of the WTU is the “Triad of Care,” which is comprised of a squad leader, a nurse
case manager, and a primary care manager (a physician). The Triad of Care staff was established
to envelop the Warriors and their families in comprehensive care and support, which is focused
on each Warrior’s primary mission – to heal. Specifically, the Triad of Care works together as a
team to collect Soldier data and information and develop a plan of care specific to each Soldier.
The plan of care addresses medical treatment, administrative requirements, support needs, and
disposition. The intention is for all of these elements to work together to ensure advocacy for the
Warriors, continuity of care, and a seamless transition back into the force or to a productive
civilian life.

In accordance with Fragmentary Order (FRAGO) 3 to Execution Order (EXORD) 188-07,
March 20, 2009, established the WTU Triad of Care staff to Warriors ratios at: squad leader
(1:10), nurse case manager (1:20), and primary care manager (1:200).
The Triad of Care structure is shown in Figure 1.



6
  Community-Based WTUs are primarily for Reserve Component Soldiers. According to the Consolidated
Guidance, the Community-Based WTU is a program that allows Warriors to live at home and perform duty at a
location near home while receiving medical care from the Tri-Service Medical Care network, the Department of
Veterans Affairs, or Military Treatment Facility (MTF) providers in or near the Soldier’s community.
7
  According to Army Regulation 40-501, “Standards of Medical Fitness,” December 14, 2007, the basic purpose of
the physical profile serial is to provide an index to overall functional capacity. The physical profile serial system is
based primarily upon the function of body systems and their relation to military duties. The six factors that are
evaluated are: physical capacity or stamina, upper extremities, lower extremities, hearing and ears, eyes, and
psychiatric. Profiles can be either permanent or temporary.
8
  Army National Guard and Army Reserve Soldiers may be eligible for assignment or attachment to a WTU but fall
under a different and more complex process than Active Component Soldiers. The processes are shown in the
Consolidated Guidance.




                                                           3
                                        Figure 1. Triad of Care




The following is a brief description of each Triad of Care member’s roles and responsibilities.
    •   Squad Leader – traditionally a Non-Commissioned Officer (NCO) in the rank of
        Sergeant (E-5) or Staff Sergeant (E-6) and the front line leadership for all Warriors.
        Their duty description includes, but is not limited to: accounting for Warriors daily,
        counseling them and guiding them in their Comprehensive Transition Plan (CTP), 9
        ensuring that they attend all appointments, tracking all of their administrative
        requirements, and building trust and bonding with Warriors and their families.
    •   Nurse Case Manager – a civilian or Army military nurse that provides the
        individualized attention needed to support the medical treatment, recovery, and
        rehabilitation phases of care of the Warriors. The goal of case management is to
        orchestrate the best care for the Warriors by monitoring progression of care, Transition
        Review Board 10 recommendations, and Warriors’ respective goals to actively and
        proactively facilitate transition of the Warrior from one level of care to the next.
    •   Primary Care Manager – usually a physician, who is the medical point of contact and
        healthcare advocate for the Warrior. They provide primary oversight and continuity of
        healthcare and are to ensure the level of care provided is of the highest quality. They are
        the gateway to all specialty care (such as behavioral health specialists or orthopedic
        surgeons) and they coordinate with other physicians to ensure that the Warriors are
        getting the treatment that they need.

Fort Drum
Fort Drum is the home of the 10th Mountain Division (Light Infantry), its supporting elements,
and several tenant units, to include the MEDDAC and the WTB. The MEDDAC Commander




9
  The CTP is a plan that takes a broad look at the current status of a Warrior and formulates a program of action
aimed to help the Warrior move from one stage of his/her transition to the next. For additional information on the
CTP, see Observation C and Part III, Warriors Speak.
10
   Transition Review Boards are intended to facilitate dialogue between the Warrior and the Triad of Care, chain of
command, and other members of the Warrior’s care team, as appropriate, regarding both the Comprehensive
Transition Plan progress and future strategy for the Warrior’s transition.




                                                         4
exercises command and control over the WTB at Fort Drum, which is a battalion-sized unit. 11
The Fort Drum organizational structure that supported the Warriors in the WTB during our
assessment in August 2010 is shown in Figure 2.

                     Figure 2. Fort Drum Organizational Structure for Warriors

                                                      MEDDAC
                                                      Commander


                               Command                  WTB                         WTB
                               Sgt Major              Commander                    Chaplain



             Executive                               Headquarters
                                WTB Surgeon                                  Alpha Company    Bravo Company
              Officer                                 Company


             Battalion          Primary Care
              Staff               Manager
                                                                     NCM*
                                                                    Supervisor
                                Primary Care
                                  Manager
                                                                18 Nurse Case
                                                                  Managers
                                Primary Care
                                Manager (v)**
                                                                                              *NCM     Nurse Case Manager
                                                                                              **(V)    Vacant


Fort Drum Medical Department Activity
The MEDDAC treatment facilities at Fort Drum are mainly primary and ambulatory care 12 and
include the Guthrie Ambulatory Health Care Clinic, the Connor Troop Medical Clinic, and the
Wilcox Clinic. Because Fort Drum did not have an in-patient 13 hospital, the MEDDAC relied on
community support from the two local affiliated hospitals, the Carthage Area Hospital and
Samaritan Medical Center. The services provided on Fort Drum and in nearby Watertown, NY,
included, but were not limited to:
     •   Primary Care – family practice, pediatrics, and acute care 14
     •   Specialty Care – optometry, obstetrics/gynecology, dermatology, and musculoskeletal
         care
     •   Ancillary Services – radiology, laboratory, and pharmacy


11
   A battalion is a military unit of around 300–1,300 soldiers usually consisting of between two and seven companies
and typically commanded by either a Lieutenant Colonel or a Colonel.
12
   Primary Care refers to health care professionals who act as a first point of consultation for patients regarding basic
or general health care, before being referred elsewhere. Primary care is comprehensive when the primary provider
enters into a sustained partnership with you, the patient, to take responsibility for the overall coordination for the
care of your health problems, whether biological, behavioral or social. Ambulatory Care includes diagnosis,
observation, treatment, and rehabilitation that are provided on an outpatient basis.
13
   Inpatient Care refers to medical treatment that is provided in a hospital or other facility, and requires at least one
overnight stay.
14
   According to Taber’s Cyclopedic Medical Dictionary, 11th Edition, 1970, an acute care issue is defined as an issue
that has rapid onset, severe symptoms, a short course, and is not chronic in nature.




                                                            5
     •   Behavioral Health Care – alcohol and substance abuse, social work services, psychiatry
         and psychology, and community mental health services
     •   Preventive Medicine – occupational health, environmental health, audiology, and
         nutrition

Warrior Transition Battalion
As of July 22, 2010, the WTB staff population had grown to approximately 100 military
members and 50 civilians to oversee the health, welfare, and morale of approximately 300
Warriors. The WTB consisted of a headquarters company and two additional companies (Alpha
and Bravo companies) that collectively provided unit leadership and focused on meeting the
command and control functions.

The mission of the Fort Drum WTB was to provide command and control, administrative
support and services, quality prime care, and case management services for Soldiers qualifying
for Warriors in Transition (in accordance with Army Regulation 40-400); synchronize clinical
care, disposition and transition; and promote readiness to return to the Army or transition to
civilian life.

The WTB included a nurse case management staff (a supervisor and 18 nurse case managers), a
battalion surgeon, and three primary care managers (one position which was vacant as of
August 2, 2010).

Between June 1, 2007, 15 and the completion of our site visit on August 13, 2010, the Fort Drum
WTB transitioned a total of 1,155 Warriors. Table 1 shows the status of those Warriors.

         Table 1. Status of Warriors Who Transitioned Through the Fort Drum WTB
                          Between June 1, 2007, and August 13, 2010
                   Returned to Duty                                                        346
                   Transitioned from the U.S. Army to Civilian Life                        801
                   Deceased                                                                  2
                   Administrative or Adverse Actions                                         6
                   Total Warriors in Transition                                          1,155

As of August 13, 2010, there were 310 Warriors assigned to the Fort Drum WTB. Of the 310
Warriors, 43 were combat wounded; 29 were treated in a contingency theatre area of operations;
and 238 were ill or injured. 16 Of the 238 ill or injured Warriors, 130 had previously deployed to


15
   June 1, 2007, is the date that the U.S. Army WTC was officially activated.
16
  According to an official from the U.S. Army WTC, the following definitions apply to Warriors in Transition:
“Combat Wounded” - Soldiers who have been wounded by enemy actions while serving in a contingency theatre
area of operations. “Treated in a Contingency Theatre Area of Operations” - Soldiers who became ill or injured and
were treated by medical personnel while serving within a contingency theatre area of operations. “Ill or Injured” -
Soldiers who became ill or injured and were treated by medical personnel outside of a contingency theatre area of
operations.




                                                         6
a contingency theatre area of operations. The return to duty rate for Warriors in the Fort Drum
WTB is 30 percent compared to the overall rate of 47 percent for all Warriors tracked by the
WTC.

Traumatic Brain Injury and Post Traumatic Stress Disorder
Two increasingly common diagnoses for recovering Service members are TBI 17 and PTSD. 18
TBI is also referred to by its common term, “concussion,” which is when someone receives a
direct blow or a jolt to their head that disrupts the function of the brain. Service members may
sustain concussions or TBIs when exposed to a blast or explosion (sometimes on multiple
occasions), which may lead to serious symptoms. There are three different levels of TBI (mild,
moderate, and severe) based on the severity of damage to the brain.

PTSD is an anxiety disorder or condition that develops after someone has experienced or
witnessed a life-threatening or traumatic event, which may include a combat event. PTSD
usually begins immediately after the traumatic event but it could start later, even years later. A
PTSD event likely involved actual or perceived death or serious injury and caused an intense
emotional reaction of fear, hopelessness, or horror.

The TBI Clinic and Behavioral Health Department (which includes the Army Substance Abuse
Program, Fort Drum/Samaritan Behavioral Health Clinic [satellite clinic], and Social Work
Services) provided services at the Fort Drum WTB to Warriors and their families who were
affected by TBI and/or PTSD, as well as those needing care for other behavioral health issues.




17
   The definition of TBI is from multiple sources, including “Types of Brain Injury,” Brain Injury Association of
America, October 15, 2008; and “Force Health Protection and Readiness Quick TBI and PTSD Facts,” Force Health
Protection and Readiness, October 15, 2008.
18
   The definition of PTSD is from multiple sources, including “Force Health Protection and Readiness Quick TBI
and PTSD Facts,” October 15, 2008; and Jessica Hamblen, PhD, “What is PTSD?” National Center for PTSD,
U.S. Department of Veterans Affairs, October 15, 2008.




                                                        7
This Page Intentionally Left Blank




                8
      Part I -
Noteworthy Practices




         9
This Page Intentionally Left Blank




               10
Observation A. Noteworthy Practices for the
3rd Battalion, 85th Mountain Infantry Regiment
(Warrior Transition Battalion)
We observed two noteworthy practices that the Fort Drum WTB leadership instituted with
respect to providing quality services for Warriors in Transition.

   A.1. As needed, Warriors were provided a Personal Digital Assistant (PDA)

   A.2. All Warriors were required to obtain a comprehensive orientation on Soldier and
        Family Assistance Center (SFAC) services

These noteworthy practices may be applicable for utilization at other WTUs and should be
considered for implementation now, if appropriate. We plan to identify other noteworthy
practices in a summary report after all field assessments are completed and reemphasize that the
Warrior Transition Command consider them for implementation throughout all of the Army
WTUs, as appropriate.




                                               11
A.1. Warriors were Provided Personal Digital Assistants
 Warriors with memory or other cognitive medical issues were provided PDAs.
 This helped Warriors make and keep appointments and also enabled WTB
 staff to contact Warriors more easily.

A.1. Background
A PDA is a small, mobile, handheld device that provides information storage and retrieval
capabilities for personal or business use, often used for keeping schedules and calendars handy.
PDAs were provided to Warriors to assist them in daily tracking of appointments and as a
reminder of when to take medications.
A.1. Discussion
During multiple interviews, it was reported that support for Warriors, diagnosed with TBI and/or
PTSD, was adequate on the installation and more importantly within the WTB. During a group
interview with WTB leadership, they stated their belief that if you “treat Warriors in Transition
as human beings, you will be more effective in dealing with PTSD and TBI cases.” They further
explained that compassion for the individual Warrior was critical to being an effective leader in
the WTB. This included understanding the special considerations for Warriors diagnosed with
TBI and/or PTSD, such as memory issues.

To assist those Warriors with memory or other cognitive issues, they were issued PDAs. The
Warriors utilized these devices to assist them with remembering appointments, briefings,
training, or other required events, as well as to provide reminders about when to take
medications or perform other required tasks that were essential for their healing and transition.
The PDA also made it easier for WTB staff to contact the Warrior by phone.

A.1. Conclusion
The PDAs, provided to Warriors, were very helpful in assisting Warriors tracking and making
their scheduled appointments. This may ultimately assist with a more timely recovery and
transition. Additionally, we conclude this assistance to Warriors will likely result in a more
efficient use of DoD, Department of Veterans Affairs (DVA), and civilian resources because of
the reduction of missed appointments.

A.1. Recommendation
We recommend that the Warrior Transition Command provide Personal Digital Assistants to
Warriors with memory or other cognitive medical issues at other United States Army Warrior
Transition Units, where applicable.




                                                12
A.2. Orientation to the Soldier and Family Assistance Center
 Warriors assigned or attached to the Fort Drum WTB were required to in-
 process through the SFAC to ensure that they received a comprehensive
 orientation on the services available to them and their families. This
 comprehensive knowledge of available resources may greatly assist with
 easing the stress and smoothing the transition for Warriors and their families.

A.2. Background
The SFAC was a component of the total continuum of Warrior care that provided integrated
support services for Warriors and their families at a “one-stop” location near the WTU. The Fort
Drum SFAC specifically provided crucial, non-medical services necessary to smooth the
transition for Warriors and their families, for families residing in the Fort Drum area whose
Soldier was healing elsewhere, and for the spouses and families of fallen Warriors.

Fort Drum SFAC services were provided in three ways: by the resident staff members at the
SFAC; by experts brought to the SFAC location; and through off-site appointments when
necessary, practical, and prudent. The SFAC services included:
     •   Army Career and Alumni Program – career counseling, job search support, resume and
         employment workshops, and job fairs
     •   Army Wounded Warrior Program – wounded Soldier advocates, benefits advisors,
         military transition, and career and education guides
     •   Child and Youth Services – childcare, child youth and school services liaisons, and other
         resource assistance
     •   Education Specialist – GoArmyEd® 19 enrollment assistance, Montgomery GI Bill
         assistance, Army and civilian testing, and educational and guidance counseling
     •   Human Resources Specialist – assistance with updating records (Service members’
         Group Life Insurance, Defense Eligibility Enrollment Reporting System), forwarding
         documents to the official military personnel file, and processing separation and retirement
         orders
     •   Social Services Coordinator – information and assistance in finding solutions to life
         problems (stress management, substance abuse, and re-adjustment counseling)
     •   Traumatic Servicemembers’ Group Life Insurance 20 – information and assistance with
         obtaining a traumatic injury protection rider under the Servicemembers’ Group Life
         Insurance
     •   Financial Counselor – assistance with budget development, financial crisis counseling,
         and financial planning for the future



19
   GoArmyEd® is an online portal that automates paper-based processes for requesting tuition assistance online for
classroom, distance learning, and eArmyU online college courses.
20
   Traumatic Servicemembers’ Group Life Insurance provides for payment to any member of the uniformed services
covered by Servicemembers’ Group Life Insurance who sustains specific catastrophic injuries.




                                                       13
The Fort Drum SFAC also offered legal services, chaplain assistance, federal and state Veterans
services, and access to a Department of Labor representative.

A.2. Discussion
All Warriors assigned or attached to the Fort Drum WTB were required to in-process through the
aforementioned SFAC groups to ensure that they received a comprehensive orientation on the
services available to them and their families. Warriors were required to obtain a signature on
their in-processing checklist from a representative within each group, which signified that they
were briefed on the available services. The SFAC Director validated that the Warriors
completed the full in-processing with his signature on their in-processing checklists. The SFAC
staff scheduled Wednesdays and Friday mornings for in-processing new Warriors.

A.2. Conclusion
Requiring Warriors to obtain a comprehensive orientation on SFAC services may ensure that
Warriors are aware of the available services to them and their families. This comprehensive
knowledge of available resources can greatly assist to ease the stress and smooth the transition
for Warriors and their families.

A.2. Recommendation
We recommend that the Warrior Transition Command establish policy requiring Warriors
assigned to Warrior Transition Units to in-process through the Soldier and Family Assistance
Center to ensure that they receive a comprehensive orientation on the services available to them
and their families.




                                                14
Part II - Challenges




         15
This Page Intentionally Left Blank




               16
Observation B. Challenges for the Fort Drum
Medical Department Activity
The Fort Drum MEDDAC should address four challenges related to Warriors’ medical care in
order to ensure the safe and effective care, healing, and transition of Warriors. The four
challenges included:

        B.1.     Warriors’ Timely Access to Specialty Medical Care: Specialty medical care
                 appointments for Warriors assigned to the WTB were not within established
                 standards. As a result, Warriors at Fort Drum WTB were at risk of being delayed
                 in returning to duty or transitioning to civilian life.

        B.2.     Medication Management for Warriors: Medical and WTB staff expressed
                 concern that Warriors appeared to be inappropriately medicated for their medical
                 conditions. Consequently, Fort Drum’s medical community prescription practices
                 could lead to potentially harmful medication-related incidents or enduring health
                 problems.

        B.3.     Complete and Accurate Medication Profiles for Warriors: Medical care personnel
                 may not have had a complete and accurate picture of each Warrior’s medication
                 profile. Consequently, without complete Warrior prescription information,
                 inaccurate clinical, behavioral health, and/or disability management decisions
                 could potentially be made.

        B.4.     Obtaining Warriors’ Medical Results from Off-Post 21 Providers: The MEDDAC
                 Referral Management Office and the Health Net Federal Services contractor 22
                 were not obtaining medical results from off-post medical care providers within
                 established standards. 23 Consequently, the lack of timeliness in providing the
                 results of medical referral updates to Warriors’ medical records could have an
                 adverse impact on clinical (including behavioral and mental health, and/or
                 disability management) decisions made on behalf of Warriors.




21
   Off-Post refers to medical facilities outside Fort Drum proper; outside the gates of a military installation.
22
   Health Net Federal Services is the Tri-Service Medical Care (TRICARE) North Region managed care support
contractor.
23
   Standards for MEDDAC Referral Management: 95% within 10 days; Health Net Federal Services: 98% within
10 days; 100% within 30 days.




                                                       17
B.1. Warriors’ Timely Access to Specialty Medical Care
 Specialty medical care appointments for Warriors assigned to the WTB were
 not within established standards. As a result, Warriors at Fort Drum WTB
 were at risk of being delayed in returning to duty or transitioning to civilian
 life.

B.1. Background
Barriers to health care in rural areas typically include long travel distances for specialty care,
lack of confidentiality in small towns, and lack of psychosocial support and case management.
Additionally, winter travel in the rural Fort Drum/Watertown area can be difficult with
temperatures often near zero degrees and a mean average snow fall of 84 inches.

Fort Drum is located in rural upstate New York, just outside of Watertown, NY and
approximately 30 miles from the Canadian border. The population of Fort Drum is
approximately 36,000 active duty Soldiers and family members while the population of
Watertown is approximately 28,000. The nearest large city (Syracuse, New York) is
approximately 70 miles away and has a population of approximately 750,000.

The MEDDAC at Fort Drum provided primary care and limited specialty care services at the
Guthrie Ambulatory Health Care Clinic, Conner Troop Medical Clinic, and Wilcox Clinic.
Because Fort Drum did not have an in-patient military hospital, the MEDDAC relied on local
community hospitals for many services.

The availability of medical care in the immediate vicinity of Fort Drum/Watertown is limited to:
   •   Optometry, obstetrics/gynecology, dermatology, and musculoskeletal specialty care
   •   Radiology, laboratory, and pharmacy ancillary services
   •   Alcohol and substance abuse, social work services, psychiatry and psychology, and
       community mental health and behavioral health care
   •   Occupational health, environmental health, audiology, nutrition, and preventive medicine
To meet the behavioral health demands of active-duty soldiers, and other DoD eligible
beneficiaries, the Coleman Clinic community partnership was established between Samaritan
Medical Center in Watertown, NY and Health Net Federal Services. Behavioral Health services
include, assessment, diagnosis and treatment of behavioral health conditions, including but not
limited to counseling, group and individual therapy, education and medication management.

Also in the immediate vicinity of Fort Drum/Watertown is the Watertown Veterans
Administration (VA) Outpatient Clinic which provides primary care services and behavioral
health services. However, for specialty medical care services, the Watertown VA relied on the
VA Healthcare, Upstate New York facility located in Syracuse, NY.




                                                 18
B.1. Discussion
Warriors indicated that for the most part, they were satisfied with their primary care managers.
However, Warriors reported in multiple interviews that they had challenges receiving specialty
care. They felt that they did not receive timely access to certain types of specialty medical care,
such as behavioral health services, neurology, and sleep clinic appointments.

Warriors indicated that access to behavioral health services was one problematic issue. For
example, a Warrior stated that he asked for a psychologist to see him at a behavioral health clinic
in July 2010, but was told that it would take two-to-three months for one to be assigned to him.
Another Warrior stated that although he liked working with his current behavioral health
specialist, he was switching to another because his current specialist is overbooked.

A Fort Drum behavioral health specialist acknowledged that they had insufficient numbers of
providers and had a difficult time meeting their access to care standards. As a result, for
behavioral health services, they had to rely heavily on providers located at the Coleman Clinic.

During an individual interview, a Warrior reported problems with his neurologist. He showed up
for a scheduled appointment in February, but was not seen and was rescheduled for a new
appointment in August, 6 months later. Another Warrior stated that during his neurology
appointment for epilepsy, the specialist was hasty during the appointment, which ended up being
too short and unsatisfactory. Finally, another Warrior mentioned that his access to specialty
medical care was “good, when you finally get an appointment.” He mentioned that the long
waits were for neurology and sleep studies, and that his wait for his sleep study was
approximately three months.

Fort Drum MEDDAC provided the list of the top five specialty medical services with the longest
appointment wait times at Fort Drum. See Table 2.


     Table 2. Fort Drum MEDDAC: Top Five Longest Average Wait Times for Active Duty
                                  Specialty Services
                              (as of September 1, 2010)
                Specialty Service                                   Average Wait (in Days)
                Gastroenterology                                            45+
                Ear, Nose, and Throat (ENT)                                 45+
                Rheumatology                                                45+
                Endocrinology                                               45+
                Pulmonary (Sleep Studies)                                   40+

As evidenced, all five specialty appointment wait times exceeded the TRICARE access to care
standards. The TRICARE 24 access to care standard for specialty medical care services specifies


24
     TRICARE is the healthcare program serving Uniformed Service members, retirees, and their families worldwide.




                                                         19
that beneficiaries must be offered an appointment, with an appropriately trained provider within
an established timeframe. The established TRICARE access to care standards 25 for appointment
times is that wellness and specialty care appointments shall not exceed 28 days. 26 Warriors were
routinely sent out of the area (75 miles or more) to receive care after established TRICARE
standards could not be met.

B.1. Conclusion
Access to certain specialty medical care is a challenge due to the location of Fort Drum.
However, the ramification of not receiving timely care is that Warriors at Fort Drum may not be
able to achieve timely transitions.

Warriors assigned to the Fort Drum WTB risk having their timely healing and transition hindered
because of the lack of readily accessible specialty medical care. For amplifying remarks by
Warriors concerning this section, refer to Part III, Warriors Speak.

B.1. Recommendations, Management Comments, and Our Response

Revised and Redirected Recommendations
Based on the non responsive comments to the recommendations received from the Fort Drum
Medical Department Activity, we have revised and redirected the draft report recommendations
B.1.1, B.1.2, B.1.3 to the Commanding General, Northern Regional Medical Command.

B.1. We recommend that the Commanding General, Northern Regional Medical Command:

         B.1.1. Obtain three months worth of data from Fort Drum Medical Department Activity
         showing numbers of appointments not scheduled and appointments scheduled that did not
         meet standards and analyze the data to quantify the extent of the service failures, and use
         the results as a basis to respond to B.1.2., and B.1.3.

         B.1.2. Direct a manpower study to assess the need and feasibility to add specialty medical
         providers to the Fort Drum medical facilities; and

         B.1.3. Assess the need and feasibility of Fort Drum entering into a joint venture with the
         Watertown Department of Veterans Affairs to add needed medical providers to the
         Watertown Veterans Administration Outpatient Clinic.




25
   Access to care standards were promulgated in the Office of the Surgeon General/Medical Command.
(OTSG/MEDCOM) Policy Memorandum 08-028, “Medical Treatment Facility (MTF) Access Standards for Active
Duty Service Members,” July 3, 2008.
26
   A wellness care appointment is designated for patients who require a visit for a wellness/preventive health
concern or with their Primary Care Manager (PCM) for an initial visit; a specialty care appointment is designated for
patients who require an initial consult, referral, or initial self-referral, specialty care appointments to include medical
procedures.




                                                           20
U.S. Army Medical Department Activity Comments
The Commander, Fort Drum Medical Department Activity concurred with the finding that
specialty medical care appointments are outside of enhanced access to care standards, but did not
agree these delays are delaying return to duty or transition to civilian life. The Commander
explained that Fort Drum is a medically underserved area with limited access to specialty care.
Meeting the 7 day WTB Enhanced Access to Care Standard was extremely difficult, if not
impossible, for many specialties that the WTB Soldiers routinely require. Frequently, Soldiers
are referred out of the local area, within a 1-3 hour drive time, to obtain specialty care. Many of
the soldiers are unable to drive and therefore require a non-medical attendant to transport them to
specialty care appointments, which requires coordination and time. The Commander explained
that the TRICARE network providers were not contractually required to meet the WTB
Enhanced Access to Care standard of 7 days. They are held to the 28-day standard.

Furthermore, the Commander identified efforts currently in place to ensure WTB referrals were
processed and booked as quickly as possible, these include:

   a. Dedicated Referrals Manager. Each referral is tracked from the time it is entered into
      CHCS/AHLTA until an authorization is received (if an authorization is required). The
      Nurse Case Manager (NCM) is notified and given the authorization, then is responsible to
      book the appointment.
   b. The WTB developed a database which tracked all WTB referrals generated and
      scheduled appointments. NCMs receive the updated spreadsheet which indicates what
      appointments have not been scheduled and what appointments were scheduled that did
      not meet the standard.
   c. NCMs having difficulty obtaining access to care within the 7-day standard contact the
      Referrals Management Office (RMO) for assistance. At that time, the referral
      authorization can be modified to another provider who can meet the access standard (if
      available).

Our Response
The Commander’s comments are non responsive. We acknowledge that access to certain
specialty medical care is a challenge due to the location of Fort Drum. We also acknowledge
that the Fort Drum Medical Department Activity has put in place processes for tracking referrals
and appointments to determine if access to specialty care is within established standards.

However, it is unclear as to whether these current practices ensure that access to care and
referrals are meeting the established access to care standards. Therefore, we ask that in response
to the final report, the Commanding General, Northern Regional Medical Command obtain and
analyze three months worth of data from Fort Drum Medical Department Activity showing the
numbers of appointments not scheduled, and appointments scheduled that did not meet standard
and to quantify the extent of the service failures, and use the results as a basis to respond to
B.1.2., and B.1.3. If challenges still remain, we ask that a response be provided on a way ahead
to ensure Warriors timely access to specialty care.




                                                21
B.2. Medication Management for Warriors
     Medical and WTB staff expressed concern that Warriors appeared to be
     inappropriately medicated for their medical conditions. Consequently, Fort
     Drum’s medical community prescription practices could lead to potentially
     harmful medication-related incidents or enduring health problems.

B.2. Background
Warrior Transition Command Policy Memorandum 10-033, “Warrior Transition
Unit/Community Based Warrior Transition Unit Risk Assessment and Mitigation Policy,”
June 16, 2010, requires programs for high-risk medication management, education, and training.
This policy also states that training should specifically address the dangers associated with
polypharmacy, which is the use of a number of different drugs, possibly prescribed by different
doctors and filled in different pharmacies, by a patient who may have one or several health
problems.

B.2. Discussion
Clinical and WTB staff expressed concern that Warriors were being overmedicated. Warriors
interviewed, on the other hand, reported having trouble obtaining necessary medications for their
conditions without being labeled as a drug addict or “junkie” (see Part III, Warriors Speak).

A group of primary care managers interviewed stated that they believed that Warriors were
receiving more medications than was appropriate for their medical conditions. One primary care
manager commented that the numbers and types of medications that some of the Warriors were
taking was a “scary situation.” This primary care manager further stated that some Warriors
come to the Fort Drum WTB already taking prescribed opioid medications, 27 and there did not
seem to be an effort over time to reduce those types of medications.

During two different group interviews with nurse case managers, they explained that Warriors
were demanding medications from primary care managers and specialists, especially those who
were more liberal in their treatment plans, and it appeared that the Warriors would too often get
what they wanted. One nurse case manager added that Warriors would threaten to go to their
congressman and complain if they did not get the pain medications that they wanted, causing
physicians to often give in to their demands. The nurse case managers agreed that insomnia and
nightmares were common medical issues for Warriors but contended, nonetheless, that sleep
medications appeared to be overly prescribed.




27
  According to the Merriam-Webster, Inc., Medical Dictionary, copyright 2010, an opioid possesses some
properties characteristic of opiate narcotics but are not derived from opium.




                                                      22
Nurse case managers indicated that many of their Warriors were taking prescription medications
such as Vicodin and Percocet. 28 They had concluded that providers were prescribing narcotics
before trying other non-narcotic medications to support Warriors’ pain needs. Finally, a group of
squad leaders agreed that addiction issues were a problem and that Warriors’ medications
seemed to be overprescribed. A WTB command team member agreed, and stated that “half of
the Warriors are ‘stoned’ on psychotropic drugs.”

B.2. Conclusion
Adherence to Warrior Transition Command Policy Memorandum 10-033 could significantly
reduce the risk of Warriors being inappropriately medicated for their medical conditions. We
believe that developing standard operating procedures for overall medication management, to
include polypharmacy management and medication reconciliations, 29 and pain management
practices including use of alternative therapies, and using these procedures to help provide
appropriate staff with necessary education and training, could significantly assist in the
identification and reduction of potentially harmful Warrior medication-related incidents. For
amplifying remarks by Warriors concerning this section, refer to Part III, Warriors Speak.

B.2. Recommendations, Management Comments, and Our Response

Redirected Recommendations
Fort Drum Medical Department Activity has yet to provide a response to the recommendations.
Therefore, we have redirected the draft report recommendations B.2.1, B.2.2, B.2.3 to the
Commanding General, Northern Regional Medical Command.

B.2. We recommend that the Commanding General, Northern Regional Medical Command:

         B.2.1. Enforce Warrior Transition Command Policy Memorandum 10-033, titled
         “Warrior Transition Unit/Community Based Warrior Transition Unit Risk Assessment
         and Mitigation Policy,” dated June 16, 2010;

         B.2.2. Develop standard operating procedures for overall medication management, to
         include polypharmacy management and medication reconciliations, and pain
         management practices including use of alternative therapies; and

         B.2.3. Develop a comprehensive training program for all Warrior Transition Battalion
         medical providers, pharmacy staff, and other staff that provides the necessary education
         and training for the identification of risk of potentially dangerous medication-related
         incidents for Warriors.


28
   Vicodin is a tablet containing a combination of acetaminophen and hydrocodone, and is used to relieve moderate
to severe pain. Percocet, the combination of oxycodone and acetaminophen, is a narcotic pain reliever used to treat
moderate to severe acute (short-term) pain.
29
   Medication reconciliation is a formal process of identifying the most complete and accurate list of medications a
patient is taking and using that list to provide correct medications for the patient anywhere within the healthcare
system.




                                                         23
B.3. Complete and Accurate Medication Profiles for Warriors
     Medical care personnel may not have had a complete and accurate picture of
     each Warrior’s medication profile. Consequently, without complete Warrior
     prescription information, inaccurate clinical, behavioral health, and/or
     disability management decisions could potentially be made.

B.3. Background
At Fort Drum, Warriors also obtained medical care from non-DoD providers, off-post. This
often resulted in Warriors receiving medications prescribed by these medical care providers. The
dispensing of these medications was documented by the pharmacy from which they were
purchased in the Pharmacy Data Transaction Service (PDTS). PDTS is a centralized drug data
repository that stores patient prescription data, including drugs ordered outside of a MTF, such as
orders from TRICARE pharmacies, mail order pharmacies, or other DoD facilities.

However, to be able to monitor Warriors’ medication consumption the PDTS record of
medications prescribed had to be electronically transferred into the Armed Forces Health
Longitudinal Technology Application (AHLTA) database, 30 which documented personnel
medical records. In 2007, an interface was developed so that AHLTA users would see the PDTS
medications in the AHLTA medication module to have complete awareness of all medications
prescribed to patients and to any potential adverse medication reactions.

B.3. Discussion
Fort Drum’s WTB pharmacist determined that not all medications documented in PDTS were
being transferred to the AHLTA database. This was causing medical care personnel to
potentially not have a complete and accurate picture of each Warrior’s medication profile. The
problem was reported to the Fort Drum MEDDAC Management Information Department, which
then raised this deficiency to the Defense Health Information Management System 31 program
office. In September 2010, a Defense Health Information Management System representative
distributed an e-mail to affected users notifying them of their awareness of the issue and
describing potential mitigating actions that could be taken while their analysis of the issue
continued. The Fort Drum pharmacist re-identified the PDTS/AHLTA interface problems in
both February and March of 2011.

Subsequent to our site visit, we were informed that the Fort Drum MEDDAC developed policies
to mitigate the effects of the PDTS/AHLTA interface problem. First, the Fort Drum MEDDAC
blocked all TRICARE benefits for controlled substances except behavioral health-related
medications, resulting in all Warriors having to procure controlled substances from an on-post


30
   Armed Forces Health Longitudinal Technology Application (AHLTA) is the medical and dental clinical
information system that generates and maintains a comprehensive, lifelong, computer-based patient record for every
Soldier, Sailor, Airman, and Marine; their family members; and others entitled to DoD military health care.
31
   The Defense Health Information Management System provides information management and information
technology solutions that capture, manage, and share healthcare data for the military’s electronic health record.




                                                       24
pharmacy, eliminating the need for entries into PDTS. Second, the WTB pharmacist conducted
medication reconciliations on all high-risk Warriors at Fort Drum (approximately 85 Warriors)
weekly by comparing information from multiple databases and medication reports. This was a
lengthy and cumbersome process which precluded it from being adopted by the medical
providers who wrote prescriptions. Because of this process the Fort Drum WTB pharmacist
could only conduct medication reconciliation on all non-high risk Warriors at Fort Drum
(approximately 320 Warriors) once every three months.

In response to our question, the Fort Drum WTB pharmacist did not know if the PDTS/AHLTA
interface issue had ever caused a specific Warrior medication problem because of an adverse
medication reaction caused by incorrect medication reconciliation.

B.3. Conclusion
Fort Drum MEDDAC acted correctly when it recognized the PDTS/AHLTA interface problems
and took appropriate steps to mitigate the risk. However, the Defense Health Information
Management system program office has not yet been able to address the PDTS/AHLTA interface
problems. Therefore, medical care personnel did not have a complete and accurate picture of
each Warrior’s medication profile. We believe it is essential that Fort Drum MEDDAC
leadership develop and widely distribute procedures to ensure that those responsible for
reviewing and/or managing Warriors’ medications are aware of these additional procedures to
use so they have a complete and accurate picture of each Warrior’s medication profile. By
incorporating these procedures this may assist medical care providers by helping them to avoid
inaccurate clinical, behavioral health, and/or disability management decisions.

B.3. Recommendation, Management Comments, and Our Response

Revised and Redirected Recommendation
Fort Drum Medical Department Activity has yet to provide a response to recommendation B.3.1.
Therefore we have revised and redirected the draft report recommendation to the Commanding
General, Northern Regional Medical Command.

B.3. We recommend that the Commanding General, Northern Regional Medical Command:

       B.3.1. Engage with the Defense Health Information Management System program office
       about the Pharmacy Data Transaction Service/Armed Forces Health Longitudinal
       Technology Application interface issue to determine when reported system deficiency
       issues will be resolved

Redirected Recommendation
Based on the partial comments received from the Fort Drum Medical Department Activity we
have redirected the draft report recommendation B.3.2., to the Commanding General, Northern
Regional Medical Command.




                                              25
B.3. We recommend that the Commanding General, Northern Regional Medical Command:

       B.3.2. Develop and widely distribute procedures to all Fort Drum Medical Department
       Activity and Warrior Transition Battalion personnel responsible for managing and/or
       reviewing medication profiles for Warriors in Transition that explain the necessary steps
       and precautions to be taken to ensure a complete and accurate record of the medication
       profile for each Warrior in Transition.

U.S. Army Medical Department Activity Comments
The Commander, Fort Drum Medical Department Activity concurred with our recommendation.
The Commander explained that incomplete medication profiles for Warriors and others were due
to incomplete crossover of information occurring between CHCS/AHLTA. Additionally, this
issue was brought forth by the WTB pharmacist and examples were provided during the IG visit.

The Commander stated that while awaiting an automation solution from MEDCOM, the
following actions were taking place, the pharmacy was (1) encouraging providers and NCMs to
use CHCS to get a more complete picture and (2) having Fort Drum pharmacists and technicians,
especially the WTB and CTMC pharmacists and technicians, review patient profiles closely to
identify potential issues.

Our Response
The Commander’s comments are partially responsive. Based on the Commander’s response, it is
not clear that outside of having the pharmacy encourage providers and others to review patient
profiles closely, what concrete actions were put in place to ensure procedures were being
followed to prevent the possibility of adverse medication interactions. In response to the final
report, we request that the Commander, Northern Regional Medical Command provide
additional comments on this recommendation, specifically, to what formal written policies have
been implemented to mitigate any adverse medication interactions.




                                               26
B.4. Obtaining Warriors’ Medical Results from Off-Post
Providers
     The MEDDAC Referral Management Office and the Health Net Federal
     Services contractor were not obtaining medical results from off-post medical
     care providers to update Warrior medical records consistent with established
     timeline standards. Consequently, the lack of timeliness in providing the
     results of medical referral updates to Warriors’ medical records could have an
     adverse impact on clinical (including behavioral and mental health, and/or
     disability management) decisions made on behalf of Warriors.

B.4. Background
Warriors assigned to the Fort Drum WTB often obtained medical care at medical facilities not
located on Fort Drum (off-post). When off-post medical care was required, the Warrior’s
primary care manager would write a referral, 32 which was then processed through the Fort Drum
MEDDAC Referral Management Office. It was explained that the Fort Drum MEDDAC
Referral Management Office considered all Warriors’ referrals as “high priority” and that there
was one clerk dedicated to track Warriors’ referrals to ensure that appointments were authorized
in a timely manner.

Once a Warrior’s medical care was performed off-post, the Fort Drum MEDDAC Referral
Management Office and the Health Net Federal Services contractor shared the responsibility for
obtaining the results from the off-post medical care provider.

The MEDDAC Referral Management Office was responsible for obtaining referral results except
for those referrals made by the Health Net Federal Services contractor. The Fort Drum
MEDDAC Referral Management Office created a “Reports Cell” which was responsible for
obtaining referral results for the diagnostic testing; coordinating with Health Net Federal
Services on the receipt of all other referral result reports; and ensuring that all reports were
scanned into the patient’s electronic medical record in AHLTA.

B.4. Discussion
However, during multiple group meetings with nurse case managers, they indicated that the
referral standards were not always met at Fort Drum. Nurse case managers stated that they
“don’t get the best support from the MEDDAC Referral Management Office.” This resulted in
nurse case managers having to directly contact off-post providers to obtain Warriors’ referral
results. One nurse case manager stated that the Referral Management Office did not obtain
referral results in a timely fashion. Another nurse case manager stated that they had to obtain



32
  A referral is the recommendation of a medical or paramedical professional to see any practitioner or specialist
other than the person’s primary care physician. The term “referral” can refer both to the act of sending a person to
another doctor or therapist, and to the actual paper authorizing the visit.




                                                         27
medical referral results directly themselves so the results could be provided to the primary care
managers for timely considerations in Warriors’ treatment plans.

B.4. Conclusion
Referral results must be obtained in a timely manner so that primary care managers can properly
manage Warriors’ treatment plans. Delays in referral feedback reflected a systemic dysfunction;
risked unnecessary extensions to Warrior transition time; and could impact important clinical,
behavioral health, and/or disability management decisions. Policy and standards were already in
place which, if followed, would facilitate the Fort Drum MEDDAC Referral Management Office
and Health Net Federal Services contractor in obtaining referred medical care results in a timely
manner.

B.4. Recommendations, Management Comments, and Our Response

Revised and Redirected Recommendation
Fort Drum Medical Department Activity has yet to provide a response to recommendation B.4.1.
Therefore we have revised and redirected the draft report recommendation to the Commanding
General, Northern Regional Medical Command.

B.4. We recommend that the Commanding General, Northern Regional Medical Command:

       B.4.1. Provide an update regarding DoD and contractor referral standards for the Referral
       Management Office and Health Net Federal Services as to whether they are meeting their
       respective obligations for Fort Drum.

Redirected Recommendation
Based on the partial comments received from the Fort Drum Medical Department Activity we
have redirected the draft report recommendations B.4.2., to the Commanding General, Northern
Regional Medical Command.

B.4. We recommend that the Commanding General, Northern Regional Medical Command:

       B.4.2. Define and promulgate referral management standards to all Warrior in Transition
       support personnel.

U.S. Army Medical Department Activity Comments
The Commander, Fort Drum Medical Department Activity concurred with the recommendation.
The Commander explained that even though WTB Soldiers fall under the Enhanced Access to
Care standards, requiring them to be seen for specialty care within 7 days of their referral there is
nothing that distinguishes the return of CLR/off-post medical reports for WTB/Warriors. The
Commander noted that there is no contractual “established standard” for the return of reports for
WTB Warriors, indicating that they fall under the same process and timeliness, which requires
the network provider to return the CLR to the medical treatment facility within 30 days from the
date of appointment for a routine referral.




                                                 28
Additionally, the Commander stated that in order to expedite CLR returns, the Managed Care
Division had created a CLR/Reports Cell group that focused specifically on obtaining CLRs,
inputting them into patients’ AHLTA records and notifying the requesting provider. Results are
usually returned within hours and approximately 95 percent of requests are completed within one
business day.

Our Response
The Commander’s comments are partially responsive. We acknowledge that a “Report Cell” had
been created within the MEDDAC Referral Management Office which was responsible for
obtaining referral results, coordinating on the receipt of all other referral result reports and
ensuring that reports were scanned into the patient’s electronic medical record in AHLTA.
However, it is unclear as to whether these current processes had an impact in meeting specialty
care access to care standards with the contractor. Therefore, we ask that in the final report, the
Commander, Northern Regional Medical Command obtain three months of data and provide an
analysis telling us whether or not current practices shows mitigation.




                                                29
Observation C. Challenges for the 3rd Battalion,
85th Mountain Infantry Regiment (Warrior
Transition Battalion)
The Fort Drum WTB should address twelve challenges related to Warriors’ transition in order to
ensure the safe and effective care, healing, and transition of Warriors. We identified the
following challenges:

       C.1.   Definition of a Successful Transition: The WTB did not have an operational
              definition of a “successful” transition to civilian status. Consequently, it was not
              evident that the WTB knew specifically how to accomplish their mission
              objective.

       C.2.   Creating a Positive Environment for Warriors’ Transitions: Fort Drum’s WTB
              leadership did not foster a positive environment to facilitate Warriors’ transitions.
              Consequently, Warriors were recovering and transitioning in an environment that
              did not provide positive physical, mental, or spiritual healing processes or
              effectively promote unit “Espirit de Corps.”

       C.3.   Adequate Staff Orientation and Training in Support of Warriors’ Transitions:
              WTB staff orientation and training did not adequately prepare them to lead
              Warriors through the transition process. Consequently, the WTB staff was at risk
              of not having the skills and information necessary to assist with Warriors’ mission
              to heal and transition.

       C.4.   Eligibility Criteria for Soldiers Assigned or Attached to the Warrior Transition
              Battalion: Some Soldiers assigned to the WTB were perceived not to meet
              eligibility criteria. Consequently, Soldiers who might not have been eligible to be
              in the WTB potentially reduced available resources for the eligible Warriors’
              transitions, and possibly contributed to the negative command climate supported
              by the perception that the WTB was a “dumping ground.”

       C.5.   Activities to Positively Impact Warriors’ Transition: Warriors lacked meaningful
              programs of constructive activities to assist with transition. Consequently,
              Warriors were limited in how they could positively impact their own transitions to
              civilian life.

       C.6.   Complying with Warriors’ Medical Profiles: WTB staff did not always adhere to
              Warriors’ medical profiles and recommendations. Consequently, Warriors were
              subjected to performing physical activities that risked further injuring existing
              wounds or acquiring new injuries that could prolong transitions, require additional
              medical needs, or restart fit for duty evaluations.

       C.7.   Understanding Military Processes to Effectively and Efficiently Support Warriors
              in Transition: The Fort Drum medical system relied on civilian medical personnel


                                               30
       who may not have fully understood military processes. Consequently, Warriors
       were at risk of not being efficiently and effectively supported during their
       transitions.

C.8.   Representation at Weekly Triad of Care Meetings: The weekly Triad of Care
       meetings were not being attended by all of the Triad of Care members who were
       intimately involved in aspects of the Warriors’ care and transition. Consequently,
       the Triad meetings were not fulfilling their intent of having key elements work
       together to ensure advocacy for the Warriors, continuity of care, and a seamless
       transition.

C.9.   Execution of Warriors’ Comprehensive Transition Plans: Warriors’
       Comprehensive Transition Plans (CTPs) were not always executed effectively.
       Consequently, Warriors may have been at risk of not accessing the full benefits of
       tools and resources available to help fulfill their transition goals.

C.10. Utilizing the Army Knowledge Online (AKO) to Administer the CTP: The Army
      Knowledge Online (AKO) platform for administering the CTP hindered staff and
      Warrior implementation of the CTP. Consequently, WTB staff and Warriors
      were not always utilizing the CTP to obtain its full benefits.

C.11. Proximity of Warriors’ Medical Care and Support: The physical locations of the
      nurse case managers, WTB clinic, and WTB pharmacy unduly hampered
      Warriors’ access to medical care. Consequently, Warriors were physically
      located away from their medical support staff which may have lead to limited,
      direct interaction with them, and potentially caused Warriors to drive while
      medicated.

C.12. Administrative Support for Nurse Case Managers: Medical support assistants
      were not being fully utilized to provide administrative support to nurse case
      managers. Consequently, nurse case managers were not always able to
      effectively and timely engage with Warriors, putting them at risk of unnecessarily
      prolonged transitions.




                                       31
C.1. Definition of a Successful Transition
     The WTB did not have an operational definition of a “successful” transition to
     civilian status. Consequently, it was not evident that the WTB knew
     specifically how to accomplish their mission objective.

C.1. Background
The Army’s Consolidated Guidance places emphasis on expeditious administrative processing
for Warriors, 33 to include the Army’s goal and intent regarding processing Warriors through the
WTU program. However, the Army guidance does not clearly define mission success with
regard to preparing Warriors to make a successful transition to civilian life.

C.1. Discussion
It was not evident from available data that the WTB had an operational definition as to what
constituted a successful transition end-state, specifically with regard to transitioning to “a
productive, responsible citizen in society.” 34 Therefore, there was no measure of mission
accomplishment with respect to the mission objective. Further, the WTB did not have clear
criteria for measuring the transition process (success or failure) so as to determine what progress
a Warrior was making towards being prepared to transition to civilian life or whether it was
necessary to continue to remain assigned or attached to the WTB.

During a meeting with the WTB command team, one official stated that a successful transition
was defined as, “to rehab the Soldier and return them to the fight;” in other words, the focus
appeared to be only on returning Warriors to duty. However, the command team could not
explain what a successful transition to “a productive, responsible citizen in society” meant nor
could they provide a unit definition.

C.1. Conclusion
For mission success to be fully achieved by the Fort Drum WTB, it is imperative that the
management, staff, and the Warriors themselves have a clear operational definition of a
“successful transition” end-state. Related metrics should also be developed to measure progress
towards the end state transition goal, and so that the timeliness of the process can be tracked to
identify choke points and necessary adjustments can be made to improve the transition process.
Without these metrics the Warriors are at risk of being at the WTU for a longer time than
necessary.

Moreover, a clear operational definition of a “successful transition” end-state, with associated
metrics, will help to ensure that the WTB and Warriors can successfully accomplish their


33
   The emphasis on the expeditious administrative processing for Warriors found in the Consolidated Guidance is
discussed in Appendix D of this report.
34
   This cite, “a productive, responsible citizen in society,” was taken from the Warrior mission statement, which can
be reviewed in its entirety in the Background section of this report.




                                                         32
mission of achieving recovery and transition towards professional and personal goals whether
returning to the military force or transitioning to a productive civilian life. For amplifying
remarks by Warriors concerning this section, refer to Part III, Warriors Speak.

C.1. Recommendations, Management Comments, and Our Response
C.1. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry
Regiment:
      C.1.1. Develop an operational definition of a successful transition end-state that
       specifically defines mission accomplishment for Warriors’ transition to civilian life;
       and

       C.1.2. Develop metrics for Warriors’ transitions that define (1) measures of success
       or failure; (2) timelines of transition to include identifying choke points; (3)
       transition processes that need improvement.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment did not concur with our
recommendations. The Commander explained that the definition of a successful transition is
different for each Soldier who enters the WTB. Soldiers either Return to Duty (RTD) or
transition out of the service. Because of the wide spectrum of Soldiers, the battalion’s mission
statement is broad. Additionally, the commander noted that each Soldier assigned to the WTB
meets with the senior occupational therapist who develops a Comprehensive Transition Plan
(CTP) that lays out what track the Soldier would like to execute. Thus, each Soldier has their
mission statement and definition of success at that point.

The Commander further commented that since February 2011, implementation of the transition
program has been ongoing and the mission statement of the warrior has been posted in numerous
battalion areas.

Our Response
The Commander’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.




                                                33
C.2. Creating a Positive Environment for Warriors’
Transitions
 Fort Drum’s WTB leadership did not foster a positive environment to facilitate
 Warriors’ transitions. Consequently, Warriors were recovering and
 transitioning in an environment that did not provide positive physical, mental,
 or spiritual healing processes or effectively promote unit “Espirit de Corps.”

C.2. Background
The Consolidated Guidance states that the WTU concept of operation includes establishing
conditions that facilitate a Soldier’s physical, mental and spiritual healing process. Warrior
Transition Command Policy Memorandum 09-001, “Warrior in Transition (WT) Medical and
Military Responsibilities,” March 8, 2010, states that the WTU chain of command must provide
accessible, responsive, and compassionate leadership, and serve as the avenue of choice for
Soldiers seeking assistance. It further states that through sustained interaction, commanders at
all levels should build confidence among Warriors in Transition that the chain of command is
committed to each Soldier’s success.

C.2. Discussion
There were multiple factors that contributed to the overall negative command climate within the
Fort Drum WTB. Those factors included inadequate communication within the unit; poor
treatment of Warriors by WTB staff; the stigma of the WTB being a “dumping ground”; and
Warrior attitudes towards the WTB; all of which are discussed below.

Unit Communication
We observed and were told about instances of poor or inadequate communication between the
command teams, WTB staff and Warriors. Programs and resources seemed to not be fully
utilized (such as government vehicles, available training and education programs, and other
useful resources) in support of Warriors’ recovery and transition.

For example, WTB staff and Warriors seemed to be unaware of the transportation assets
available to them. We were told by squad leaders that they were forced to use their privately
owned vehicles to support the needs of the Warriors and that there were very few dedicated
government vehicles. However, during an interview with members of the WTB leadership, they
stated they had adequate transportation assets, to include five civilian contracted drivers that
were largely underutilized. The transportation assets included 25 vehicles, two of which were
handicap-accessible buses.

In addition, a large contingent of Warriors said they were not permitted to take resident
educational courses in preparation for their transition to civilian life. However, a member of the
WTB leadership said that Warriors could go to school during a portion of the duty day provided
that they submit a plan showing that their classroom attendance would not impact their medical
appointments. This official stated that this issue had been addressed at WTB Town Hall
meetings for Warriors in the past. He supported his claim with the example of one Warrior who



                                                34
was featured on the cover of a local community college magazine he attended. When asked how
many other Warriors were attending resident college courses, the official stated that there were
no other Warriors that he was aware of, indicating that the education opportunity was not being
effectively promoted and supported.

Finally, during assessment team meetings with other command team members, they also
maintained that morale-inducing communication within the WTB was severely lacking. They
commented that the unit leaders understood accountability, but that was all that they were
focused on. In addition, they reported that there was no deliberate attempt to provide Warriors
with constructive training to facilitate their transition.

We believe leadership needs to ensure that communication among the command team, WTB
staff, and Warriors is appropriate to the Warriors’ medical conditions and difficulties they face.
Notwithstanding that this is a military unit there must be sufficient positive and understanding
dialogue with Warriors to effectively influence achieving the Fort Drum WTB mission to
promote Warrior healing, recovery, and transition.

WTB Staff Treatment of Warriors
WTB leadership stated that they had implemented a deliberate and thorough process at the
installation and unit level to select NCOs to become WTB squad leaders. It was explained that
the majority of the squad leaders were active component Soldiers selected from the
10th Mountain Division, but candidates were also received from the Army National Guard and
Reserve components.

The process for active component staff began with 10th Mountain Division Brigade Command
Sergeants Majors 35 identifying potential staff members and interviewing those candidates. Once
they approved their candidate, the candidates’ names and contact information were forwarded to
the Fort Drum WTB Command Sergeant Major, 36 who then conducted a second interview. The
screening and selection criteria for active component WTB staff NCOs included:
       •   A review of the Soldier’s medical profile to ensure that he or she could physically serve
           as a squad leader
       •   Demonstrated proven ability to serve as an effective leader
       •   A determination of whether any family issues or considerations could potentially impact
           the Soldier’s service as a squad leader
       •   The number of previous deployments for each Soldier and consideration for those who
           may need additional time at home after multiple deployments
       •   A demonstrated desire to help Soldiers
When the WTB Command Sergeant Major approved a candidate for a staff position, the
10th Mountain Division personnel office issued orders for that person’s assignment to the WTB.



35
     This is a position and not a rank. He or she is the senior enlisted advisor to the Brigade Commander.
36
     This is a position and not a rank. He or she is the senior enlisted advisor to the Battalion Commander.




                                                            35
The selection process for staff members from the Army National Guard and Reserve differed
compared to that of the active component. WTB leadership relied on right-of-refusal for Guard
and Reserve nominees rather than a direct role in the selection process. The Guard and Reserve
nomination process included:
     •   An administrative nomination process by the Army National Guard or Reserve to select
         Guard or Reserve candidates for assignment to the WTB
     •   A review by the WTB Command Sergeant Major of the Guard or Reserves candidate’s
         Enlisted Record Brief 37
     •   The right-of-refusal by the WTB leadership if the Guard or Reserve candidate did not
         meet the criteria of the position; which was determined using the same selection and
         screening criteria for active duty personnel
During our interviews, the WTB leadership reported that they believed the processes for squad
leader selection worked well and ultimately provided the WTB with a qualified selection of staff
to fill squad leader positions. While the Fort Drum WTB leadership implemented a deliberate
and thorough selection process at the installation and unit level for NCOs to become WTB squad
leaders, many who came from 10th Mountain Division brigades were residing on Fort Drum.
While a deliberate screening and selection process existed, we observed and were told that many
of the selected leaders exhibited leadership qualities suited for an infantry unit, and that type of
leadership focus did not work effectively with the unique population of Warriors.

WTB staff provided information about the command climate and poor treatment of Warriors
within the Fort Drum WTB. One staff member stated that morale in the unit was low, and that
the Soldiers often felt humiliated by WTB staff. For example, those Warriors who were of a
higher rank than the WTB staff were often humiliated or degraded by lower ranking staff
members. The staff member added that some Warriors complained about emotional pain; some
due to combat stress and others due to how they were being treated in the WTB. Additionally,
the staff member provided information about a squad leader who said that he was pressured by
other WTB staff to force injured Soldiers, who relied on canes for support, to participate in
physical training beyond their capability. This squad leader refused to do so, but other staff gave
into the pressure.

The social worker stated that WTB leaders with infantry experience could be very tough on the
Warriors and this might not be helpful to their recovery. However, the social worker felt that the
staff tried to be compassionate, but that did not always occur in reality. A third staff member
concluded that the WTB staff needed to lower the overall field of emotional intensity they
generated to have a more positive effect on Warriors’ healing and transition. The above noted
comments are characteristic of the attitude purveyed during the team’s interviews with most
WTB staff.




37
  The Enlisted Record Brief (ERB) contains personal information, qualification skills, training, and assignment
history for enlisted Soldiers and is used in making decisions regarding future assignments of Soldiers.




                                                        36
Warriors and their families rely on WTB staff to support their needs with understanding of their
unique situations and challenges. We believe that staff selected for WTB assignment need to
better understand Warriors’ problems and how to effectively engage them, exhibit compassion,
be respectful at all times, and make a constructive commitment to best assist their Warriors as
they transition back to duty or to a productive civilian life. The leadership chain of command
needs to consistently emphasize these objectives.

Stigma Attached to the WTB
Fort Drum WTB suffered a stigma of being a “dumping ground.” This perception was
subscribed to by Fort Drum units, the WTB staff, and many of the Warriors assigned to the
WTB. We were told by some of the staff that they spent a considerable amount of time
attempting to overcome this stigma. During a group interview, staff explained that less than
20 percent of the units on Fort Drum ever contacted Warriors from their units. When they did
contact a previously assigned Soldier who was now a Warrior, it was usually to gain control or
accountability of equipment previously issued to that Soldier. This behavior reinforced a “fire
and forget” attitude by these previous units that was not conducive to high morale or a desire to
return to active military service, if that was an option.

This “dumping ground” environment was reinforced by the general contention that “good
Soldiers” were kept in their regular units while “problem Soldiers” were passed on to the WTB.
This was illustrated by the WTB staff with a story of a Soldier who was a below-the-knee
amputee that remained with his 10th Mountain unit rather than receiving a transfer to the WTB.
This Soldier did not become known to the WTB until he was out-processing from Fort Drum.

The “dumping ground” stigma also existed amongst the Warriors. During a group interview, one
Warrior commented, “There are some Soldiers who should not be in the WTB. For example, a
Soldier is here who is on an extended profile for not shaving.” Another Warrior said that he felt
that his old unit dumped him there because they didn’t want to deal with him in his present
medical condition. A third Warrior suggested that the combat wounded be separated from other
Warriors because of the perception that the WTB is a “dumping ground.” He said that having
the combat wounded assigned together would be a source of pride for them. Finally, a Warrior
stated that he believes the rest of Fort Drum generally perceives them as rejects.

We believe that deliberate steps need to be taken to ensure that Warriors accepted into the WTB
meet the Army’s eligibility criteria to avoid the “dumping ground” stigma. It would also ensure
that the limited resources at the Fort Drum WTB are fully utilized in support of truly eligible
Warriors and focused on their care, recovery, and transition.

Perception of Warrior Attitudes
There was a perception that incentives and personal benefits existed to motivate Warriors to
remain in the WTB rather than transitioning out. While the team did not validate these
perceptions, we noted during group interviews, command staff described some Warriors as
“gaming the system.” For example, with regards to PTSD, the command staff said that some
Warriors would play “barracks lawyers” and tell other Warriors that if you claimed PTSD you
would get an automatic 50 percent disability rating. Additionally, the command staff felt that
“sleep apnea is contagious” and many Warriors seemed to be diagnosed with this condition.


                                                37
WTB staff also explained that the DVA had a calculation tool on their website that was intended
for people who received a diagnosis and wanted to estimate their individual disability claim.
What in practice was happening was that Warriors were using the calculator to determine the
best “conditions” to report to boost individual ratings and disability claims. They described it as
a “mortgage-like calculator” that Warriors used to get the most they could from the system.

We observed many instances in which lengthy processes, vague timelines, and the command
environment may have contributed to Warrior frustration and desire to leave the WTB as quickly
as possible. A WTB staff member stated, “Only an estimated one in 75 say that they like the
WTB and feel helped and supported by this process. The rest of the majority just complain that
they can’t wait to get out.”

This staff member further explained that one Soldier said that he would rather be in Iraq being
shot at than be in this WTB. Other Warrior comments mirrored this sentiment, to include one
Warrior who stated that it is so bad in the WTB, “I’d rather be in jail.”

C.2. Conclusion
The WTB leadership needs to ensure proper communication with and treatment of the Warriors,
as well as work to change the negative stigma associated with being assigned or attached to the
WTB as a Warrior. Leadership focus on developing unit “Esprit de Corps” and promoting a
positive command climate could provide a healthy environment for Warriors which promotes
healing, recovery, and preparation for Warrior transition. For amplifying remarks by Warriors
concerning this section, refer to Part III, Warriors Speak.

C.2. Recommendations, Management Comments, and Our Response
C.2. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry Regiment
establish a positive command environment that effectively supports Warrior transitions by:

        C.2.1. Conducting a confidential climate survey with all Warriors in Transition and
        Warrior Transition Battalion Staff to determine opinions about the current
        environment with regard to, at a minimum: command climate and leadership, unit
        communication, treatment of Warriors in Transition, Warrior Transition Battalion
        stigma, and Warrior in Transition attitudes.

        C.2.2. Utilizing the results of the climate survey recommended in C.2.1. to make the
        necessary adjustments within the Warrior Transition Battalion to ensure the
        appropriate working and healing environment is provided for all Staff and
        Warriors in Transition.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment partially concurred with our
recommendation. The Commander stated that developing an “Espirit de Corps” for Warriors in
a transitional state is a challenge, noting that the mission of the battalion is to transition Soldiers
either back to the fight or into society. The Commander further commented that battalion



                                                  38
leadership has made it priority to develop a positive environment for each Warrior by providing
as many positive events and experiences as possible for each individual.

Furthermore, the battalion has hired a transition coordinator who integrates Employment,
Education and Internship (EEI) support to each Warrior to assist with their individual healing
process. He further explained that the unit has a Family Readiness Support Assistant (FRSA)
who has the mission of promoting unit “Espirit de Corps” and wellness and does this by
coordinating with many agencies (i.e., ACS, chaplain, MWR, the Red Cross and others) to
organize and execute activities for the Warrior.

According to the Commander, the Battalion Command commenced a command climate survey
on July 28, 2011 with completion by August 1, 2011. The Commander further explained that the
entire chain of command was committed to providing a positive, physical, mental, or spiritual
healing processes that effectively promotes unit “Espirit de Corps.”

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendation.




                                               39
C.3. Adequate Staff Orientation and Training in Support of
Warriors’ Transitions
     WTB staff orientation and training did not adequately prepare them to lead
     Warriors through the transition process. Consequently, the WTB staff was at
     risk of not having the skills and information necessary to assist with Warriors’
     mission to heal and transition.

C.3. Discussion
The WTB staff plays pivotal roles in assisting Warriors with their healing and transition. As
such, it is imperative that the training and support provided to the staff is thoroughly informative
and all-inclusive. However, with regard to current training, the Fort Drum WTB staff:
       •   Viewed the squad leader orientation course as inadequate
       •   Recommended initial and continuous TBI and PTSD awareness training, as well as
           training in pain management, substance abuse, and other behavioral health issues
Several squad leaders explained that they received a two-week training course when first arriving
at the WTB while others stated that they took just an online course before beginning their duties
as a squad leader. While these orientation courses were perceived as somewhat beneficial, many
believed that shadowing another squad leader and receiving on-the-job training before taking on
their squad leader responsibilities would be more useful training tools. Squad leaders also
agreed that more training on TBI and PTSD would help them execute their Warrior support
responsibilities because of the high number of Warriors in the WTB with one or both of these
conditions.

In addition, most staff that we interviewed expressed the need for additional, specialized training
in areas such as behavioral health, substance abuse, pain management, medication issues,
Army/military policies and procedures and how they affect Warriors. The WTB Surgeon felt
that it would have been beneficial for him and all primary care managers to attend the two-week
resident training course at Fort Sam Houston before taking on their WTB responsibilities. He
also recommended that medical personnel obtain additional training on PTSD, TBI, chronic pain,
and substance abuse. The WTU Pharmacist also agreed that additional training on pain
management, drug addictions, TBI, PTSD and other behavioral health conditions would be
beneficial.

In addition, a group of company commanders and first sergeants also believed they needed more
information and training regarding Warriors’ medical needs, such as impacts of certain
medications, symptoms of certain conditions, profiles, the Disability Evaluation System, 38 and



38
  The Disability Evaluation System should include a medical evaluation board (an informal process initiated by at
least two active duty physicians who compile, assess, and evaluate the medical history of a Service member and
decide if the individual should return to duty or be referred to a physical evaluation board); a physical evaluation
board (a formal fitness-for-duty and disability determination); an appellate review process; and a final disposition.




                                                          40
the support services available to Warriors, such as the qualifications and authorizations for non-
medical attendants. 39

During multiple group interviews, nurse case managers overwhelmingly agreed that they needed
initial and ongoing training on behavioral health issues such as PTSD, substance abuse, and
depression. They also recommended additional training on TBI, psychiatric medications, and
Fort Drum-specific policies and procedures.

Other civilian specialists agreed that training outside of their specialty was needed because of the
unique issues among the Warrior population. Before being hired at the WTB, the occupational
therapist had no prior experience with the military and received no training to acclimate him to
the Army. He claimed that dealing with WTB Warriors was distinctly different from individuals
he dealt with through his civilian practice, which made it a difficult challenge to work at Fort
Drum. He recommended that occupational therapists receive training on military culture, as well
as behavioral health issues because of the prevalence of TBI and PTSD in the population that
they assist.

The social workers agreed that specialized training was necessary. One social worker suggested
training on military-specific processes, such as the Medical Evaluation Board (MEB), Military
Occupational Specialty (MOS) 40/Medical Retention Board, 41 and DVA entitlements. 42 Another
social worker wanted additional training on TBI and PTSD, how military members and their
families are affected by these issues, and to learn how they could be of greater assistance.

C.3. Conclusion
Appropriate training for WTB staff is required to ensure the most effective and efficient
management and support of the Warrior’s mission to heal and transition. For amplifying
remarks by Warriors concerning this section, refer to Part III, Warriors Speak.




39
   When the need arises for non-medical care and assistance during a Warrior’s treatment at a MTF, medical
authorities will authorize a non-medical attendant to assist the Soldier. For additional information on non-medical
attendants, see Part III, Warriors Speak: Comments from Warriors in Transition.
40
   A Military Occupational Specialty (MOS) code is a job designation assigned to a particular Soldier or Marine in
the U.S. Army and U.S. Marine Corps, respectively.
41
   A MOS/Medical Retention Board is an administrative board, formally conducted, to evaluate a Soldier’s ability to
perform their military specialty to standard.
42
   The Department of Veterans Affairs (VA) operates programs to benefit veterans and members of their families.
Benefits include compensation payments for disabilities or death related to military service, pensions, education, and
rehabilitation. The VA also guarantees home loans, provides burial services for veterans, and operates a medical
care program that includes nursing homes, clinics, and medical centers.




                                                         41
C.3. Recommendations, Management Comments, and Our Response

Redirected Recommendations
Based on the non responsive comments received from the 3rd Battalion, 85th Mountain Infantry
Regiment we have redirected the draft report recommendations C.3.1. – C.3.5., to the
Commanding General, Northern Regional Medical Command.

C.3. We recommend that the Commanding General, Northern Regional Medical Command:

Develop a comprehensive training program for all Warrior Transition Battalion non-
commissioned officers, nurse case managers, and other staff as applicable. The program should
offer training opportunities tailored to meeting individual needs and should include at a
minimum:

        C.3.1. The skills and knowledge required for dealing with Warrior in Transition
       population, which include but are not limited to: military culture, Army processes and
       procedures, Medical Evaluation Board requirements and procedures, the Disability
       Evaluation System, and the Armed Forces Health Longitudinal Technology Application
       electronic medical record;

      C.3.2. The medical education required to understand Traumatic Brain Injury, behavioral
      health issues, and Post Traumatic Stress Disorder and their signs and symptoms;

       C.3.3. The medical education required to understand and recognize common medications
       used, potential interactions, and side effects;

       C.3.4. The knowledge about entitlements and services provided for and available to
       Warriors in Transition, which include but are not limited to: entitlements from the
       Department of Veterans Affairs, as well as a comprehensive overview of the services
       provided at the Traumatic Brain Injury Clinic, Behavioral Health Department, and
       Soldier and Family Assistance Center so that staff can provide knowledgeable assistance
       and referrals to Warriors in Transition; and

       C.3.5. The opportunity to shadow a fellow staff member who executes the same or
       similar responsibilities that will be required of new personnel, or to conduct a
       “replacement in place/transfer of authority” with outgoing and incoming personnel as
       executed in traditional military units.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment did not concur with our
recommendations. The Commander explained that the WTB staff is hand-selected by the Senior
Non-Commissioned Officer (NCO) in the battalion from Active Duty, National Guard and
Reserve Soldiers. The Commander stated that the majority of these Soldiers are combat veterans
who have the skills and leadership ability required to be Squad Leaders, Platoon Sergeants and
First Sergeants. Additionally, the Commander commented that each NCO is required to attend
the two-week cadre-training course prior to working with Warriors. These NCOs are required to


                                              42
attend monthly NCOPD’s and complete ongoing training. All Nurse Case Managers must also
attend the required training.

Furthermore, the Commander stated that cadre members attended a two-week cadre-training
course tailored to Warrior Transition Battalions in addition to the Cadre Training Course in San
Antonio, Texas. As of May 2011, the 3/85th started an internship program where cadre members
conduct “left seat – right seat” rides with veteran cadre members which also includes nurse case
managers.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment comments are non responsive.
The Commander’s response addresses required training, specifically, the two-week cadre
training for Squad Leaders, Platoon Sergeant’s, First Sergeant’s, and Nurse Case Managers.
However, it does not address the areas of additional recommended training for staff to assist with
proficiency, understanding of Warrior medical needs, knowledge about medical evaluation board
processes and entitlements, and on-going training needs as identified in C.3.1. – C.3.5. We ask
that the Commanding General, Northern Regional Medical Command provide a response to the
final report recommendations with regards to the development of additional training for WTB
cadre and staff that is specific to meeting on-going training needs after orientation.




                                               43
C.4. Eligibility Criteria for Soldiers Assigned or Attached to
the Warrior Transition Battalion
 Some Soldiers assigned to the WTB were perceived not to meet eligibility
 criteria. Consequently, Soldiers who might not have been eligible to be in the
 WTB potentially reduced available resources for the eligible Warriors’
 transitions, and possibly contributed to the negative command climate
 supported by the perception that the WTB was a “dumping ground.”

C.4. Background
The eligibility criteria for a Soldier’s assignment or attachment to a WTU generally requires that
(1) a Soldier has a profile for more than 6 months with duty limitations, and (2) the acuity of the
wound, illness, or injury requires clinical case management. For the complete definition of the
eligibility criteria, see the Background section of this report.

C.4. Discussion
The issue of accepting Warriors into the program who did not meet the eligibility criteria for
assignment to the WTB was raised by WTB staff. For example, during a group interview with
WTB company-level staff, they stated that the guidance governing assignment to the WTB had
not been consistently followed, resulting in the WTB being perceived to have become a
“dumping ground.”

Multiple squad leaders agreed with this perception. During a group interview, squad leaders
asserted that Soldiers who did not meet the eligibility criteria were in the WTB because units on
Fort Drum knew how to “work the system.” During an individual interview, one squad leader
specifically stated, “Soldiers with behavioral health issues have an automatic pass to the WTB.
We accept those who we know do not meet the entry criteria mainly when they assert a
behavioral health issue. It seems that if the Division wants a Soldier in the WTB, they will get
him/her into the WTB.” Finally, another squad leader estimated that 20 percent of Warriors are
in the WTB so that Fort Drum units can obtain replacements.

Additionally, a 10th Mountain Division Brigade was deactivated and the Soldiers who were
deployable were subsequently re-assigned throughout Fort Drum. However, the Soldiers who
were not medically ready to deploy or were awaiting discharge from the Army were assigned to
the WTB. This decision was made by the 10th Mountain Division Commander, who as the
Senior Mission Commander responsible for the WTB has the authority to assign Soldiers to the
WTB as he deems appropriate. Therefore, there were a legacy number of assigned Warriors in
the WTB who did not meet the intended WTC assignment criteria.

Furthermore, Warriors also expressed the perception that Soldiers who did not meet the
eligibility criteria were in the WTB. Specifically, during a group interview, one Warrior
commented, “There are some Soldiers who should not be in the WTB. For example, a Soldier is
here who is on an extended profile for not shaving.”




                                                44
C.4. Conclusion
We did not review in detail the decision-making process for admitting Soldiers into the WTB.
Our conclusions were based on results of interviews with the members of the chain of command,
battalion staff, cadre, medical staff and Warriors. However, if the reported assignment practices
are true, it may have resulted in diminishing the resources applied to Warriors that meet the
eligibility criteria. Not adhering to the assignment eligibility criteria could also have contributed
to the negative command climate.

If appropriate assignment criteria are not being consistently applied; deliberate steps need to be
taken to rectify the situation. Adhering to eligibility criteria for Warrior assignment would likely
assist in removing the “dumping ground” stigma held by many within the WTB and by Fort
Drum personnel and units. It would also ensure that the limited resources at the Fort Drum WTB
are fully utilized in support of truly eligible Warriors and their care, recovery, and transition. For
amplifying remarks by Warriors concerning this section, refer to Part III, Warriors Speak.

C.4. Recommendations, Management Comments, and Our Response
Revised and Redirected Recommendations
We have revised and redirected the draft report recommendations to the Commander, Warrior
Transition Command to provide a response to recommendations C.4.1. and C.4.2.

C.4. We recommend that the Commander, Warrior Transition Command:

       C.4.1. Review and respond about the Fort Drum Warrior Transition Battalion
       implementation of the Army eligibility criteria to determine if practices are appropriate,
       transparent, and clearly defined for determining Soldier eligibility.

C.4. We recommend that the Commander, Warrior Transition Command:

       C.4.2. Review and respond about the Fort Drum Warrior Transition Battalion assignment
       waiver process to determine if an appropriate, transparent, and clearly defined waiver
       system for determining Soldier eligibility is being adhered to.

10th Mountain Division Comments
The Acting Commander, 10th Mountain Division concurred with recommendation C.4.1.,
explaining that Fort Drum has an established process, transparent, and clearly defined system for
evaluation of Soldiers for the WTU.

The Acting Commander, 10th Mountain Division did not concur with recommendation C.4.2.
The Commander non concurred that Soldiers are admitted to WTU by an assignment waiver
process that does not meet the standards established by the Warrior Transition Command. The
Commander explained that a Triad of Leadership Board with representation by WTU Command,
Division Command, and MEDDAC Command reviews cases where a Soldier does not clearly
meet eligibility for entrance into the WTU or the Soldier’s chain of command disagrees with a
Soldier not being granted entrance into the WTU.



                                                 45
Our Response
The Acting Commander’s comments are non responsive. The Acting Commander restated the
established Army policy for eligibility criteria of Warriors to the WTB. However, he did not
state what steps Fort Drum has taken to ensure that the implementation of the Army eligibility
criteria was being carried out in a clearly defined and transparent manner.

We did not review in detail the decision-making process for admitting soldiers into the WTB.
Our conclusions were based on results of interviews with the members of the chain of command,
battalion staff, cadre, medical staff and Warriors. However, if the reported assignment practices
are true, it may have resulted in diminishing the resources applied to Warriors that met the
eligibility criteria. Not adhering to the assignment eligibility criteria could also have contributed
to the negative command climate.

During our interviews with Warriors, cadre and staff, we were repeatedly told that the Army
eligibility criteria process was not being followed, and that there was a perception of “dumping.”
Our interviews clearly show there was a widely held perception that Soldiers assigned to the
WTB did not meet the eligibility criteria. For example, there were some Soldiers assigned to de-
activated or demobilized units 43 who were awaiting discharge from the Army and/or not
medically ready to deploy being assigned to the WTB. Soldiers may be deemed medically
unready for deployment due to factors not relevant to admission into the WTB. We were also
made aware that the Senior NCO chain at Fort Drum played a major, albeit informal role, in
determining who gets assigned to the WTU, which further contributed to the perception of
“dumping.”

Therefore, we are referring these recommendations to the Commander, Warrior Transition
Command to review the implementation of the Army eligibility criteria and assignment waiver
process utilized by the Fort Drum WTB, and to provide a response to these recommendations.




43
  The units were the 174th Infantry Brigade, a U.S. Army Reserve Unit stationed at Fort Drum with the mission of
providing operational training in the First Army, when the unit found out they were to be deactivated from Fort
Drum to Joint Base McGuire-Dix-Lakehurst, they started sending patients to the WTU since around 2007. The 86th
Infantry Brigade Combat Team is a National Guard Light Infantry Brigade that mobilized in December 2009 at
Camp Atterbury, Indiana and deployed to Afghanistan in support of OEF. The 86th IBCT returned in December
2010, and was demobilized.




                                                       46
C.5. Activities to Positively Impact Warriors’ Transition
 Warriors lacked meaningful programs of constructive activities to assist with
 their transition. Consequently, Warriors were limited in how they could
 positively impact their own transitions to civilian life.

C.5. Background
The mission of the Fort Drum WTB was to provide command and control, administrative
support and services, quality prime care, and case management services for Soldiers qualifying
for Warriors in Transition (in accordance with Army Regulation 40-400); synchronize clinical
care, disposition and transition; and promote readiness to return to the Army or transition to
civilian life.

C.5. Discussion
WTB did not have a definitive mission end state and associated metrics to measure success. As a
result identifying and implementing beneficial Warrior activities that promote transition to
civilian life was challenging. There did not appear to be any comprehensive program to provide
Warriors with constructive educational and training activities to effectively use their time and
assist in their preparation to make a successful transition to a productive, responsible citizen in
society once they departed the WTB.

We were told by multiple WTB staff and Warriors that the WTB unwritten “command policy” in
force, prohibited Warriors from attending resident educational courses or vocational training
during the duty day. During a meeting with WTB leadership, our question regarding educational
opportunities for Warriors during the duty day was answered with, “going to school is a privilege
not a policy.”

A squad leader explained that in the past, Warriors used tuition assistance and applied for
resident education courses. However, some did not go to class, failed their courses, and had to
repay their tuition. As a result, the command decided to make resident schooling off-limits
during the duty day. This same squad leader felt that the current command policy unfairly
punished the entire unit. He believed that Warriors should have the ability to use the education
center during the day and the chance to prove that they could responsibly balance their healing
(medical appointments) with their transition (classes and schoolwork).

The majority of Warriors also expressed frustration over lack of constructive daily activities.
The preponderance of Warriors interviewed stated that their day consisted of attendance at
military formations, medical appointments (if any), and physical training. Warriors stated that
the WTB staff tried to find them “jobs” around Fort Drum, but some of those who had jobs
considered them menial tasks, and others did not have jobs because they were unable to find one
that positively impacted their transition. Several Warriors stated that if they were permitted to
take resident college courses, they would take advantage of that opportunity.

A number of Warriors found activities on their own to fill their days, to include volunteer
opportunities (United Service Organizations, Education Center, the Guthrie Clinic, the Museum,



                                                47
Salvation Army, and SFAC), on-line college courses, or duties at their previous Fort Drum unit.
However, although those Warriors’ days were occupied with such activities, the assessment
team’s view was that those activities did not necessarily prepare those Warriors for a successful
transition to civilian life.

C.5. Conclusion
Warrior accountability and medical processes are and should be an Army and WTB priority, but
adequate and appropriate occupational preparation is just as important and is indeed fundamental
to the Warrior’s transition to civilian life. Warriors should be provided with meaningful
activities, and educational opportunities suited to the needs of each Warrior, that will
productively impact their transition and best prepare them for becoming productive, responsible
citizens in society. For amplifying remarks by Warriors concerning this section, refer to Part III,
Warriors Speak.

C.5. Recommendation, Management Comments, and Our Response
C.5. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry Regiment
provide a comprehensive program of constructive education and training, tailored to
individual Warrior in Transition needs and plans, in order to facilitate Warrior recovery
and transition.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment concurred with the
recommendation. The Commander explained that this is an issue at Fort Drum given the
location of the post. Fort Drum is unable to use the programs, facilities and the resources offered
at posts closer to urban areas.

Furthermore, the Commander stated that on July 25, 2011 the Education, Employment, and
Internship (EEI) Policy was implemented and signed into effect by the 3-85 BN Commander.
The Transition Coordinator as well as the Occupational Therapists each work with every soldier
to develop a program to impact their own personal transition to civilian life maximizing
utilization of available resources. Additionally, the Transition Coordinator works with on-post
agencies to allow Warriors the opportunity to work and pursue educational opportunities to help
with transitioning to civilian life.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                                48
C.6. Complying With Warriors’ Medical Profiles
 WTB staff did not always adhere to Warriors’ medical profiles and
 recommendations. Consequently, Warriors were subjected to performing
 physical activities that risked further injuring existing wounds or acquiring
 new injuries that could prolong transitions, require additional medical needs,
 or restart fit for duty evaluations.
C.6. Background
Warrior Transition Command Policy Memorandum 09-001, “Warrior in Transition (WT)
Medical and Military Responsibilities,” March 8, 2010, states the following about profiles:
WTs [Warriors] will adhere to and the chain of command will enforce all medical profiles, to
include no alcohol profiles. Profiles are designed to ensure a positive rehabilitative process and
healing. If unsure, Soldiers should seek guidance on what actions are permissible and non-
permissible within the parameters of the profile. The chain of command, as well as the WT
should emphasize capabilities vice disabilities. Adaptive physical activity is critical to overall
successful healing and transition.

C.6. Discussion
Although it is WTC policy to include “adaptive physical activity” in the Warrior recovery
program, it was evident that physical training was not always conducive to ensuring a “positive
rehabilitative process and healing.” Rather, the execution of this Command Policy
Memorandum seemed to manifest another aspect of the negative command climate and lack of
unit cohesion, which led to improper treatment of Warriors.

This was apparent in some of the staff’s attitudes toward and treatment of Warriors’ medical
profiles. WTB staff reportedly overrode Warrior medical profiles, in some instances,
demonstrating a lack of understanding of or disregard for the stated policy. This disregard for
Warrior physical limitations was observed by our team, and noted during interviews with
medical professionals.

One example included a Warrior who was diagnosed with cancer. This Warrior’s doctor told
him to stay away from crowds (i.e. no formations at the WTB) because of his weakened immune
system. However, the staff required him to be at formation and to stand in ranks. He was also
under medical orders to rest and do no physical training, yet the staff required him to take part in
physical training. Another staff member told us of a Warrior with a profile that allowed him to
walk with the use of a cane. The staff made this Warrior participate in physical training by
walking, but we were told that this Warrior was constantly harassed by staff to “walk faster.” A
third example included a Warrior diagnosed with Attention Deficit Hyperactivity Disorder who
was directed to sit at the guard desk without being allowed to read. A mental health professional
explained that this would be difficult for anyone, but even more difficult for someone with
Attention Deficit Hyperactivity Disorder who needs something to occupy his or her mind.

We also observed Warriors, requiring canes, being forced to stand for the entire event while
attending morning formation. When we asked the WTB staff about the practice of overriding



                                                 49
Warrior medical profiles, we were told that the profile was a recommendation from the medical
staff and that the Commander was not required to accept or adhere to the recommendation.
However, Warriors and other staff were concerned that WTB staff overriding these medical
profile recommendations could hinder the Warriors’ recovery and prolong their healing.

C.6. Conclusion
Recommendations made by medical professionals should be adhered to by staff to ensure that
each Warrior is focused on proper healing and is not placed in a situation that could hinder their
recovery. There is an apparent lack of clarity and understanding by the WTB command and staff
regarding the significance of adherence to these profiles and the circumstances, if any, under
which the Command may be authorized to disregard medical profiles and also specific guidance
from a medical care provider regarding a Warrior’s medical recovery. For amplifying remarks
by Warriors concerning this section, refer to Part III, Warriors Speak.

C.6. Recommendation, Management Comments, and Our Response
C.6. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry Regiment,
ensure that all profiles and medical recommendations are consistently applied and are not
overridden by Warrior Transition Battalion Staff.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment did not concur with our
recommendation. The Commander explained that all profiles are reviewed by the BN Surgeon
and at no time are Warriors subjected to performing physical activities that would risk further
injury. Additionally, the WTB is developing an adaptive sports program that is formulating a
positive profile telling him/her what adaptive sports events that he/she can participate in to assist
with recovery.

Since January 2011 a modified Physical Readiness Training (PRT) program has been offered.
Each profile is reviewed and updated by the nurse case managers and the WTB staff has direct
communication with Primary Care manager (PCM) to ensure that profile recommendations are
followed.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                                 50
C.7. Understanding Military Processes to Efficiently and
Effectively Support Warriors in Transition
 The Fort Drum medical system relied on civilian medical personnel who may
 not have fully understood military processes. Consequently, Warriors were at
 risk of not being efficiently and effectively supported during their transitions.

C.7. Discussion
Several individuals – to include clinical staff, nurse case managers, and Warriors – commented
that medical personnel treating the Warrior population should understand the military culture,
Army processes, and specific related Warrior care issues to be effective in supporting Warriors’
needs. Reportedly, however, some civilian health care providers and clinical support staff did
not fully understand military processes for Warriors.

The WTB Surgeon believed that primary care managers should be experienced military service
providers. If medical care from contractors from outside of the military were necessary, he also
maintained that they needed to understand the basics of the Army culture, treatment of Soldiers,
the profiling and MEB processes, and using AHLTA for medical documentation. The Fort Drum
WTB Pharmacist agreed that the learning curve was “huge” for civilian primary care managers
in the WTB clinic, specifically in the areas of using the AHLTA system and being familiar with
Army policies and procedures.

A group of nurse case managers echoed these sentiments almost verbatim. They felt that in their
experience, contracted primary care managers are limited in their effectiveness when they have
no prior experience in dealing with the military. They stated that civilian providers don’t
understand the profiling system, MEB paperwork, and use of the computer to document medical
information in AHLTA.

Finally, Warriors agreed that civilian providers employed by the DoD and assigned to the WTB
need to understand the military system, especially in the case of war-related injuries. One
Warrior stated that he had to explain his conditions to his civilian primary care manager at least
twice because his doctor was new to Fort Drum and did not know how the system worked.
Another Warrior stated that the civilian primary care managers are great people and treat them
well, but have no idea about the military or the Army. Because of this, the Warrior stated that
he would rather have a military doctor. Finally, another Warrior simply stated that the civilian
primary care managers “need to learn more about the Army.”

C.7. Conclusion
The individuals we interviewed understood that uniformed military providers and clinical
support staff were often not available because they were assigned to deployed or deploying units;
and therefore, civilian support was needed to supplement WTB medical needs. However, they
all strongly suggested, and we agree, that civilian providers and support staff need to obtain the
necessary training on military culture, DoD and Army policies and processes, and specific
Warrior care issues to be efficient and effective in their care and treatment of Warriors.
For amplifying remarks by Warriors concerning this section, refer to Part III, Warriors Speak.


                                                51
C.7. Recommendation, Management Comments, and Our Response

Redirected Recommendations
Based on the non responsive comments received from the 3rd Battalion, 85th Mountain Infantry
Regiment we have redirected the draft report recommendations C.7.1. – C.7.4., to the
Commanding General, Northern Regional Medical Command.

C.7. We recommend that the Commanding General, Northern Regional Medical Command:

Develop a comprehensive training program for all primary care managers and other civilian
providers or medical support staff working on Fort Drum with Warriors in Transition be
provided with training opportunities tailored to meeting their individual needs. The training
should include at a minimum:

       C.7.1. Familiarization of military culture, Army processes and procedures, Medical
       Evaluation Board requirements and procedures, the Disability Evaluation System, and the
       Armed Forces Health Longitudinal Technology Application electronic medical record;

       C.7.2. The medical education required to understand Traumatic Brain Injury, behavioral
      health issues and Post Traumatic Stress Disorder and their signs and symptoms;

       C.7.3. The medical education required to understand and recognize common medications
       used, potential interactions, and side effects; and

       C.7.4. The knowledge about entitlements and services provided for and available to
       Warriors in Transition, which include but are not limited to: entitlements from the
       Department of Veterans Affairs, as well as a comprehensive overview of the services
       provided at the Traumatic Brain Injury Clinic, Behavioral Health Department, and
       Soldier and Family Assistance Center so that staff can provide knowledgeable assistance
       and referrals to Warriors in Transition.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment concurred with our
recommendations. The Commander explained that medical care for Fort Drum, NY relies upon
civilian medical specialists, often with no military experience. Additional Army Nurse Case
Managers were hired; and to balance the limited military knowledge of the supporting civilian
providers, WTU PCMs review all referral documentation to ensure the provider’s intentions are
met.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are non
responsive. While the Commander concurred with our recommendations, there was no reference
made to the development of a comprehensive training program for all primary care managers and
other civilian providers or medical support staff that was tailored to meeting their individual
needs as was recommended in C.7. The Commander included comments that additional Nurse



                                               52
Case Managers were hired, however no specifics were provided regarding the numbers of new
hires, nor a date. In response to the final report, we request that the Commanding General,
Northern Regional Medical Command provide information on Army Nurse Case Managers
hiring practices, to include numbers and dates. Additionally, we recommend that an action plan
for formalization of a comprehensive training program that addresses recommendations C.7.1. -
C.7.4. be developed and request that it be provided.




                                              53
C.8. Representation at Weekly Triad of Care Meetings
 The weekly Triad of Care meetings were not being attended by all of the Triad
 of Care members who were intimately involved in aspects of the Warriors’
 care and transition. Consequently, the Triad meetings were not fulfilling their
 intent of having key elements work together to ensure advocacy for the
 Warriors, continuity of care, and a seamless transition.

C.8. Background
At the heart of the WTU system’s success is the “Triad of Care.” The Triad is comprised of a
squad leader, nurse case manager, and primary care manager. Optimally, the Triad of Care
works together to ensure advocacy for Warriors, continuity of care, and a seamless transition
back into the force or to a productive civilian life. The squad leader leads the Soldiers, and the
nurse case manager coordinates their care. The primary health care manager oversees medical
care, which can be complex, given the multiple physical and mental health issues experienced by
some Soldiers. These professionals are responsible for putting the Soldier first, cutting through
red tape, and minding all relevant recovery and transition details.

C.8. Discussion
We were informed during multiple interviews with nurse case managers and squad leaders that
attendees of the Triad of Care meetings had recently changed. One group of nurse case
managers stated that Triad meetings used to include nurse case managers, primary care
managers, squad leaders, social workers, pharmacists, and company staff. But, social workers,
pharmacists, and primary care managers were recently excluded by the WTB Command, and
platoon sergeants began representing squad leaders at these meetings. The nurse case managers
believed that previous meetings were more effective at fully sharing information with all
concerned parties, and that in addition the format had since become more of a “status report
briefing” instead of an open discussion of pertinent information on each Soldier’s status.

Squad leaders agreed that the changes to attendees at Triad meetings had negatively impacted the
communication process between medical and non-medical unit leadership. One squad leader
specifically stated that he was concerned that squad leaders were now excluded from Triad of
Care meetings. He contended that “squad leaders are a key part of the Triad of Care” and need
to be there to understand how best to perform their duties, not to learn about what took place
second hand. Another squad leader added that squad leader to primary care manager
communications are truly necessary and therefore, primary care managers needed to attend the
Triad meetings as well.

C.8. Conclusion
The three members of the Triad of Care – the squad leader, nurse case manager, and primary
care manager – envelope the Warrior in comprehensive care and support as each Warrior heals
and transitions from the WTB. Therefore, it is imperative that these members, as well as other
staff who are intimately involved in aspects of the Warriors care and transition, should attend the
Triad of Care meetings so that comprehensive care and tailored support can be provided for each



                                                54
individual Warrior. For amplifying remarks by Warriors concerning this section, refer to Part
III, Warriors Speak.

C.8. Recommendation, Management Comments, and Our Response
C.8. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry Regiment
ensure the Triad of Care meetings include at a minimum the squad leaders, nurse case
managers, and primary care managers, as well as other appropriate staff members.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment did concur with our
recommendation. The Commander explained that the Triad of Care meeting has been changed
to include Squad leaders, Platoon Sergeants, NCMs and Social Workers who discuss each
Soldiers issues and medical plan. As of January 2010, the Triad of Care meetings are held every
Tuesday and are the number one priority of work. Attendance is monitored and all key members
are required to attend every meeting.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                               55
C.9. Execution of Warriors’ Comprehensive Transition Plans
     Warriors’ Comprehensive Transition Plans (CTPs) were not always executed
     effectively. Consequently, Warriors may have been at risk of not accessing
     the full benefits of tools and resources available to help fulfill their transition
     goals.

C.9. Background
When appropriately used, the CTP provides a broad perspective of the current status of a Warrior
and the formulation of a program of actions aimed to help the Warrior move from one stage of
his/her transition to the next. The Warrior provides initial input on his or her goals in five
clinical self-assessment categories, 44 and twelve non-clinical self-assessment categories, 45 and
the Warrior’s desired transition status. A plan is then formulated to help guide the Warrior on a
path to receive medical care and achieve transition with the help of the squad leader, nurse case
manager, primary care manager, social worker, occupational therapist, and other medical care
providers.

C.9. Discussion
WTB staff generally agreed that the CTP was a “check the block” requirement and had not been
made operational in support of Warriors, as intended. This perception was shared by battalion
staff, company commanders, first sergeants, squad leaders, and nurse case managers.

Members of the WTB leadership stated that the CTP concept was valid, but the operational
implementation was severely lacking. One WTB staff member stated that while he understood
the need for squad leaders to provide input, he believed that the CTP would be more beneficial if
applied on an individual basis by someone who understood transition counseling – such as a
vocational rehabilitative counselor – to assist Warriors with developing meaningful lifetime
goals.

A group of company commanders and first sergeants also understood the concept of the CTP and
believed that there was some benefit to be gained. But, the group also felt that there were too
many modules with repetitive information that did not require weekly updates for each Warrior,
such as information concerning Warriors’ long term goals. They all maintained that the CTP had
become a task to maintain, rather than a true value to the Warriors.

During a group interview, nurse case managers agreed that all Warriors do not need the detailed
and regimented activity of completing the CTP to effectively plan their transition. In a separate
group interview, nurse case managers stated that in theory, the CTP was a valuable tool, but in



44
  These 5 categories are activities of daily living, health care, medication, pain, and behavioral health.
45
  These 12 categories are work plan, education, employment, weight control, physical fitness, well being, social,
family, financial, housing, administrative support, and transportation.




                                                        56
reality, it was not assisting Warriors in their recovery and transition. One nurse case manager
stated, “If the Warrior believed in it, maybe it would be more helpful.”

Squad leaders provided mixed reviews when asked whether they felt the CTP had a positive
effect on the Warriors’ recovery and transition. Some thought that it could be useful, but “its
usefulness is up to the Warrior.” Most others believed that the CTP was a waste of everyone’s
time, stating that Warriors complained because their status did not change from week to week
and that, moreover, they did not know what was realistic for goal setting until they knew how
long their medical care or medical boards would take. One squad leader believed that discussing
Warriors’ goals with them, making recommendations, and guiding them through the process
would be more helpful versus it being a “check the block” exercise. Another squad leader
suggested that the CTP be applied to all Warriors as individuals and updated on a case-by-case
basis.

C.9. Conclusion
A situational or individual approach to Warriors’ utilization of the CTP would be more beneficial
to the transition process than as a mandatory requirement for all. A tailored situational approach
to CTP implementation would enable staff to gain additional time with their Warriors and
provide them with more personalized guidance during the transition process. For amplifying
remarks by Warriors concerning this section, refer to Part III, Warriors Speak.

C.9. Recommendation, Management Comments, and Our Response
C.9. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry Regiment
develop procedures and training to ensure that the Comprehensive Transition Plan process
is individually tailored and effective for Warriors in Transition.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment partially concurred with
comments to our recommendation. The Commander stated that in the last 12 months the CTP
has been completely revised and all individuals required to complete the CTP have been hired to
include a CTP Management Analyst for each company who ensures proper utilization of CTPs.
All Commanders and the OT supervisor attended additional training on the CTP as of August 8,
2011. Based on guidance received through Northern Regional Command, the scrimmage
process of the CTP is being held every Monday.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendation. No further action is required.




                                                57
C.10. Utilizing the Army Knowledge Online to Administer the
Comprehensive Transition Plan
 The Army Knowledge Online (AKO) platform for administering the CTP
 hindered staff and Warrior implementation of the CTP. Consequently, WTB
 staff and Warriors were not always utilizing the CTP to obtain its full benefits.

C.10. Background
AKO is the United States Army’s main intranet. It is said to be the world’s largest corporate
intranet. AKO provides the Army with a single entry point for access to the Internet and the
sharing of knowledge and information, making AKO the Army’s only enterprise collaboration
tool operating throughout the Department of the Army worldwide. The main AKO intranet
serves over 2 million registered users, including active duty and retired service personnel and
their family members, and provides access to over 300 applications and services, including the
CTP.

C.10. Discussion
WTB staff stated that the AKO platform hindered their assistance in helping Warriors transition.
They experienced the AKO platform as cumbersome to use, and were forced to duplicate efforts
by either completing hard copy documentation manually or maintaining an electronic version of
their Warriors’ CTPs off-line.

During a group interview, the WTB company staff stated that the AKO platform did not work
due to extraordinarily slow download times and system “time outs” during inputs, making the
AKO platform too cumbersome to use. The WTB company staff stated that they were forced to
maintain their own legacy system to document day-to-day inputs into Warriors’ CTPs. They
were then required to input this information into the Warriors’ official CTPs on AKO, essentially
a duplication of efforts, which they felt wasted too much of leadership’s time. They concluded
that Warriors rarely provided positive remarks about the CTP and its support of their transition
from the military to life as a civilian.

The WTB leadership suggested that the Army consider placing the CTP on the Medical
Occupational Data System, which is a web-based application that received high praise from the
Army Medical Department at Fort Drum.

Squad leaders echoed these sentiments, and their comments included the following:
    •   “The CTP causes the AKO system to overload.”
    •   “The new AKO system does not work. I cannot access it 50 percent of the time. They
        need to take the CTP off of AKO and put it on its own server.”
    •   “The program is ridiculously long and AKO makes it even more time consuming. It
        needs to be web-based and have its own maintenance.”
    •   “AKO on-line is a mess. The negative effect that the CTP has is because of the
        frustration with AKO and the lack of on-line accessibility.”




                                               58
Finally, during multiple group interviews with nurse case managers, they agreed that the AKO
platform was too slow and often “kicked them out of the system.” They were also documenting
hard copy risk assessments for Warriors (double work) due to unreliability of AKO and the CTP
module.

C.10. Conclusion
The CTP application needs modification to make it a meaningful management tool that is more
efficient for Warriors and WTB Staff to use. In its present configuration, it is ineffective for use
as a tool that facilitates Warrior recovery and transition. For amplifying remarks by Warriors
concerning this section, refer to Part III, Warriors Speak.

C.10. Recommendations, Management Comments, and Our Response
C.10. We recommend that the Commander, Warrior Transition Command:

          C.10.1. Engage with the appropriate Department of the Army Headquarters
          personnel to determine ways to improve the use of the Army Knowledge Online
          platform in support of implementation of the Comprehensive Transition Plan.

C.10.2. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry
 Regiment develop alternative procedures to ensure the Comprehensive Transition Plan
 administration via the Army Knowledge Online platform does not:

          C.10.2.a. Require duplicative efforts on the part of the Warrior Transition
          Battalion staff and Warriors in Transition;

          C.10.2.b. Hinder Warriors in Transition from participating in the
          Comprehensive Transition Plan process due to cumbersome and timely
          requirements.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment concurred with comments to
our recommendations. The Commander explained that problems still exist with the AKO
platform; however, the hiring of the CTP Management Analyst is making an impact. Having one
individual who can focus on the CTP platform has improved communication among the CTP
users. Furthermore, effective March 28, 2011, an analyst has been assigned to each company
which has greatly improved the efficiency and accuracy of the CTP input process.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendations. No further action is required.




                                                 59
C.11. Proximity of Warriors’ Medical Care and Support
 The physical locations of the nurse case managers, WTB clinic, and WTB
 pharmacy unduly hampered Warriors’ access to medical care. Consequently,
 Warriors were physically located away from their medical support staff which
 may have lead to limited, direct interaction with them, and potentially caused
 Warriors to drive while medicated.

C.11. Background
In support of comprehensive Warrior care, a new WTB Campus is being built near the Guthrie
Clinic on Fort Drum. The planned facilities were scheduled in the following phases:
   •    Phase 1 – approximately 200 barracks spaces and a two-company headquarters building
        (completed)
   •    Phase 2 – additional 100 barracks spaces, a battalion headquarters building, and an SFAC
        building (the Army Corps of Engineers was preparing to advertise this project during our
        site visit)
   •    Phase 3 – additional barracks spaces, a third company headquarters, and an
        administration facility (contingent on supplemental funding)
   •    Phase 4 – a dining facility and a physical therapy facility (contingent on supplemental
        funding)
Until this campus is completed, the nurse case managers, who are an integral part of the
Warrior’s Triad of Care, had to be physically located in a modular building near the WTB
headquarters. The distance from location to the nurse case managers to the Warrior barracks and
company headquarters building – which houses the company staff, squad leaders, and other
civilian staff (such as social workers) – was approximately three miles. Further, the WTB
primary care clinic and the WTB pharmacy that Warriors used were physically located near or in
the Conner Troop Medical Clinic, which was also approximately three miles from the WTB
company headquarters building and Warrior barracks.

C.11. Discussion
The current Warrior campus facilities generated concerns among the staff about the decentralized
physical location of:
    •   Nurse case managers, which limited their ability to support an effective Triad of Care
        relationship
    •   The Warrior clinic and pharmacy which were far (3 miles) from the Warrior barracks
During a group meeting, nurse case managers explained that they were located near the WTB
headquarters because of space limitations in the company headquarters building. The original
Warrior campus plan was for the nurse case mangers to be located in the company headquarters
building near the Warrior barracks. However, as their numbers increased, they outgrew the
available space and were moved to their current location.

Nurse case managers believed that, because they were not co-located, they could not readily
work side-by-side with Warriors, to effectively address their care issues, which limited their


                                                60
effectiveness. Additionally, there was concern that Warriors had to drive or find other
transportation to get a face-to-face meeting with their nurse case manager, which was, again,
inefficient and potentially dangerous (if Warriors were driving while medicated). Warriors also
recognized that not having the nurse case managers centrally located impacted their recovery and
transition. One Warrior stated, “Bring the nurse case managers in the building so that they can
best assist the Soldiers assigned to this unit.”

Location of the Clinic and Pharmacy
Warriors saw their primary care managers for routine appointments at the WTB primary care
clinic. This clinic also supported a “sick call” beginning at 7 a.m. during the week for Warriors
with acute care issues on a first-come, first-served basis. There was some concern expressed by
Warriors that the physical location of the WTB primary care clinic a few miles from the Warrior
barracks unnecessarily hampered Warriors’ access to their primary care managers.

Warriors were also scheduled for appointments at the Guthrie Ambulatory Health Care Clinic,
which was located within walking distance of the Warrior barracks. The WTB campus facilities
were built next to the Guthrie Clinic to provide Warriors the efficiency and ease of access to
medical care services. There was a pharmacy in the Guthrie Clinic, but Warriors could not
obtain medications or refills at that pharmacy. Instead, Warriors were required to use the
pharmacy in the Connor Troop Medical Clinic. A WTB staff member stated, “They moved the
Soldiers here to be close to the Guthrie clinic, then moved the place where they can get their
medications to another location. So, Soldiers have to travel to get their medications when there
is a pharmacy across the street.”

Warriors were also confused as to why the WTB pharmacy was relocated. One Warrior
specifically explained, “They moved the WTB barracks so we are across from Guthrie [clinic]
when we used to be across from the Connor Troop Medical Clinic. Then, they moved the
medication pick-up point from Guthrie to near Connor [Troop Medical Clinic]. The distance is a
few miles so WTB members have to walk, drive, or take a shuttle. They need to make it faster
and easier to get medication refills.”

C.11. Conclusion
The facilities that are planned to be built at the WTB campus should alleviate the decentralized
physical locations of nurse case managers, the primary care clinic, and the designated WTB
pharmacy. However, phases three and four are contingent on supplemental funding. If these
phases are not executed because they are not funded, the physical separation of nurse case
managers, the WTC primary care clinic, and the WTB pharmacy from the WTB barracks and
company headquarters will continue indefinitely.

We believe that Warriors should have easy access to the nurse case manger, primary care, and
their pharmacy. Until (if) the final two phases of construction are complete, the Fort Drum WTB
should consider feasibility of having the nurse case managers work closer to Warriors, squad
leaders, and other staff. Physically locating nurse case managers near the Warriors and staff
would likely support improved communications with Warriors, and better support Triad of Care
member relationships. For amplifying remarks by Warriors concerning this section, refer to Part
III, Warriors Speak.


                                               61
C.11. Recommendations, Management Comments, and Our Response

C.11.1. We recommend that the Commander, 3rd Battalion, 85th Mountain Infantry
Regiment conduct an assessment to determine whether it is financially and logistically
feasible to have the nurse case managers, Warriors in Transition Battalion primary care
clinic, and/or Warrior pharmacy located near the Warrior in Transition campus.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment concurred with comments to
our recommendation. The Commander explained that the WTB is working to have all NCMs
located next to Guthrie Ambulatory Clinic, the barracks and company headquarters as part of the
next phase of construction. As of May 25, 2011, WTs have been housed next to the Guthrie
Ambulatory Clinic.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are responsive and
the actions meet the intent of the recommendations. No further action is required.

Revised and Redirected Recommendation
The 3rd Battalion, 85th Mountain Infantry Regiment provided no comments to recommendations
C.11.2.a, and C.11.2.b. We have redirected the draft report recommendations C.11.2.a, and
C.11.2.b. to the Commanding General, Northern Regional Medical Command.

C.11.2. We recommend the Commanding General, Northern Regional Medical Command:

Develop and widely distribute policy and procedures for Warrior Transition Unit personnel
responsible for managing transportation of Warriors. Specifically, address those practices that:

       C.11.2.a. Prevent Warriors in Transition from driving while medicated; and

       C.11.2.b. Ensure Warriors in Transition are provided consistent access to nurse case
       managers, primary care, and pharmacy services.




                                               62
C.12. Administrative Support for Nurse Case Managers
 Medical support assistants were not being fully utilized to provide
 administrative support to nurse case managers. Consequently, nurse case
 managers were not always able to effectively and timely engage with
 Warriors, putting them at risk of unnecessarily prolonged transitions.

C.12. Background
The Bravo company supervisory nurse case manager stated that they were authorized one
medical support assistant for each company (headquarters, Alpha, and Bravo), and one office
automation assistant to support all three companies. Only two of these positions were filled
during our site visit; a hiring action was initiated for the vacant third position. Also, the medical
support assistant for the headquarters company was vacant.

C.12. Discussion
The nurse case managers stated that they required additional, consistent administrative support to
be able to effectively engage with their Warriors. During a group interview with nurse case
managers, they acknowledged that there were administrative assistants providing support to the
companies, but for unknown reasons these individuals were not always available. They stated
that they needed more reliable administrative support to help make appointments and follow-up
on other Warrior concerns and needs. During a separate group interview with nurse case
managers, they echoed that to make medical appointments for Warriors, consistent company
administrative support was required. Currently that support is unavailable. They stated that they
needed more administrative support and felt that they should have nurse case manager assistants
to provide this support.

A third group of nurse case managers stated that administrative requirements had doubled, if not
tripled, over the last several years and these additional administrative requirements were taxing.
For example, there was a requirement for them to update the Medical Occupational Data System
weekly, provide their weekly CTP input on their Warriors, and conduct and document peer
reviews. They concluded that additional administrative support was needed because the two
“full-time” individuals providing clerical support were not always available on a consistent basis.

C.12. Conclusion
The supervisory nurse case manager is responsible to ensure that the medical support assistants
for each company are fully utilized in providing administrative support to nurse case managers.
Also, the supervisory nurse case manager should conduct a needs assessment to determine
whether additional administrative support positions are required. If additional personnel support
requirements are identified, the supervisory nurse case manager should present the requirement
to MEDDAC and WTB management for resourcing.




                                                 63
C.12. Recommendations, Management Comments, and Our Response
The 3rd Battalion, 85th Mountain Infantry Regiment comments are non responsive. We have
redirected the draft report recommendations C.12.1, and C.12.2. to the Commanding General,
Northern Regional Medical Command.

Redirected Recommendations
C.12. We recommend that the Commanding General, Northern Regional Medical Command:

       C.12.1. Ensure that the medical support assistants are fully utilized in providing
       administrative support to nurse case managers; and

       C.12.2. Conduct a needs assessment to determine and resource additional administrative
        support requirements.

3rd Battalion, 85th Mountain Infantry Regiment Comments
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment concurred with comments to
our recommendations. The Commander explained that there is a process in place for hiring
additional Medical Support Assistants to support NCMs.

Our Response
The Commander, 3rd Battalion, 85th Mountain Infantry Regiment’s comments are non
responsive. The Commander’s response does identify the need for additional Medical Support
Assistants. However, it does not address if a needs assessment was conducted, nor specify the
numbers of Medical Support Assistants being hired and what roles they will fill. We ask that the
Commanding General, Northern Regional Medical Command provide a response to the
recommendations.




                                               64
Part III - Warriors Speak




           65
This Page Intentionally Left Blank




               66
Part III. Warriors Speak
We believe that it is important to give a voice to Warriors assigned to the WTB. We felt that
including comments made by Warriors themselves could best illustrate their various experiences
in the unique development of the WTU mission and environment.
We interviewed 122 Active Component, Army National Guard, and Army Reserve Warriors,
both individually and in group settings, at the Fort Drum WTB. Those Warriors provided both
positive feedback and concerns about their access to medical care and certain aspects of
installation support. Interviewed Warriors stated that:
   •   Equitable access to medical care was provided to Active Component, Army National
       Guard, and Army Reserve Warriors for the condition(s) that required their assignment or
       attachment to the Fort Drum WTB
   •   Installation support services and activities were available to assist Warriors in their
       recovery and transition

We also noted twenty-one common themes from Warrior interviews that we believe require the
attention of all Fort Drum WTB management and staff. These twenty-one common themes were
categorized under one of the following six groups:

   •   Command Climate and Leadership
   •   Preparation for Transition
   •   Health Care Services
   •   Comprehensive Transition Plans
   •   Warrior Safety
   •   Family Concerns
Warrior Good News
Warriors that were interviewed during our visit provided positive feedback in two specific areas:
equitable access to medical care and availability of installation support services and activities,
both of which are discussed below.

Equitable Access to Medical Care
An overwhelming majority of the Active Component, Army National Guard, and Army Reserve
Warriors that we interviewed stated that they received equitable access to medical care for the
condition(s) that required their assignment or attachment to the Fort Drum WTB.

One Warrior who had been at the WTB for approximately four months stated that he had not
heard of or seen any discrepancies in treatment for rank, component (Active Duty, Army
National Guard, and U.S. Army Reserve), or combat versus non-combat wounded Warriors. He
also stated that he believed that everyone in the unit received equal treatment. Another Warrior,
a U.S. Army Reservist, commented that the staff was sensitive to the thought that a Reservist
might not understand the WTB process and might need more guidance than an active duty
Soldier, but for care issues, “we are all treated the same.”




                                                67
During a group interview with junior enlisted Warriors, they believed that all Warriors received
equal access to medical care because no one knew who was combat-wounded versus non-combat
wounded.

Installation Support Services and Activities
Several Warriors that we interviewed felt that quality support services were available through the
Fort Drum installation. These installation support services were lauded because of their overall
assistance to Warrior healing and transition. A few of the comments provided by Warriors
follow.

One Warrior commented that he only needed a few more credits to complete his Associate’s
degree. He stated that with the help of the Education Center on post, he was “on the right track”
to completing his degree. Another Warrior commented that he utilized the scuba program that
was offered on the installation; specifically stating, “The scuba program is awesome and very
therapeutic.” Another Warrior mentioned that the finance office on post was very helpful with
pay issues that he encountered. Finally, many Warriors stated that the services offered at the
SFAC were very helpful in providing transition assistance.
Warriors’ Concerns
There were several common themes we noted from our Warrior interviews. We believe that
these concerns warrant the attention of MEDDAC and WTB management and staff. Warriors’
comments about those concerns are expressed in the following paragraphs.
Command Climate and Leadership
Warriors largely agreed that the command climate and leadership were hindering their recovery
and transition. Specifically, Warriors:
   •   Felt that the negative command climate was detrimental to their healing and transition
   •   Expressed a fear of retribution if they utilized the Commander’s open door policy
   •   Reported inconsistent and ineffective communication throughout the unit
   •   Felt that squad leaders were only focused on their accountability rather than individual
       Warrior needs
   •   Reported that individual infractions often resulted in mass punishment and loss of
       privileges for all
   •   Conveyed that military customs and courtesies were not always observed and enforced by
       staff
   •   Stated that losing units generally do not contact them once they were assigned to the
       WTB (“fire and forget” attitude)
WTB Environment
The themes of a negative command climate and poor treatment were pervasive throughout our
Warrior interviews. Warriors cited numerous and assorted examples of detrimental command
climate and callous treatment that led to their anger, depression, frustration, and lack of
motivation. Examples of the negative climate and treatment included:

   •   A Warrior commented that the unit segregated along racial lines and by MOS, saying that
       it was like high school with cliques.



                                               68
   •   Another Warrior commented about racial issues; specifically that there was racism in the
       unit and a definite issue with favoritism.
   •   During an individual interview, a Warrior explained that the staff made some Warriors
       call them after appointments, but didn’t make their “buddies” call. This Warrior
       concluded that favoritism was definitely apparent in the WTB.
   •   One Warrior talked about a staff member who treated him like a three year old, with an
       “always in your face” attitude, bullying him and constantly using derogatory remarks.
   •   A Warrior explained that discrimination against Guard and Reserve Soldiers was very
       subtle. Staff made snide comments or called specific Warriors “names” that reflected
       their medical conditions. Guard and Reserve Warriors were then called those names in
       front of the rest of the Soldiers at formations.
Open Door Policy
During an interview with WTB leadership, it was explained that the WTB Commander, like all
commanders at Fort Drum, had an open door policy for Soldiers who sought direct interface with
the Commander to resolve any issue. When asked “how many Warriors use this open door
policy,” a WTB leader stated that they did not experience a high volume of Warriors and as such,
this leader concluded that Warriors had no problems that required the Commander’s direct
intervention.
Warriors provided different insights into the lack of utilization of the WTB Commander’s open
door policy. Those comments included:
   •   One Warrior stated, “We won’t use the open door policy to see the Commander, as this
       will do no good.”
   •   Another Warrior didn’t believe that they could see the WTB Commander without
       repercussions.
   •   A third Warrior stated, “The open door policy to the Battalion Commander is not used
       because everyone here is afraid that they will be punished or otherwise retaliated against
       for bringing problems up to the Commander.”
   •   Another Warrior explained that although he was a senior enlisted Soldier with over
       18 years of active duty, he needed an escort to go visit individuals within the Battalion.

WTB Communication
We were told about and observed several instances of inconsistent and ineffective
communication within the WTB. Examples of poor communication included “information
overload” as well as failures to obtain information in a timely manner.

One Warrior stated, “This organization needs to communicate better with the Soldiers. I feel like
I am ‘drinking water from a fire hose’ and things that come easy to active duty Soldiers are
definitely not coming easy to Reservists. I am not even sure if I will be paid next month!”
Another Warrior commented that in his experience, it appeared that the squad leaders had
communication issues, seemed unorganized, and were unable to provide timely information. He
further stated that the squad leaders appeared that they were not informed about services
available to the Warriors.




                                               69
Warriors also commented on the lack of transportation assets that were available to support their
needs. Many of the Warriors’ comments contradicted those made by WTB leadership about this
topic which served as verification that communication gaps existed. For example, one Warrior
claimed that the vans were often broken, specifically stating, “Everyone has appointments and
the WTB is under-sourced in transportation.” Another Warrior commented that a need existed
for a duty driver to transport them across Fort Drum to allow them to make appointments and use
base services. A third Warrior mentioned that he did not see the need for large passenger vans
when the majority of the trips were for one Soldier only.

Further, Warriors provided examples of communication deficiencies with spouses living in the
Fort Drum area, and for family members and support groups outside of the geographic area.
   •   During multiple group interviews, there was a consensus among Warriors that
       information was generally not provided to spouses and that family members were not
       contacted.
   •   During an individual interview, one Warrior commented that his wife was at Fort Drum
       with him, but the WTB did not reach out to her or call her.
   •   Another Warrior relayed that her spouse was never called by the WTB and family
       outreach was nonexistent. When the spouse tried to engage with WTB staff to obtain
       information, the individuals who were approached would reply that they were unaware of
       the specific details of his spouse’s case.
   •   A Warrior whose family lived in Syracuse stated that the WTB did not consider families
       who were not from the local area.

Squad Leader Focus
Warriors felt that squad leaders were more focused on maintaining accountability of their
whereabouts and other administrative requirements than focusing on individual Warrior needs.
Warriors also felt that WTB staff was too focused on operating the WTB as a traditional unit and
returning Warriors to duty, which was not conducive to mission accomplishment; specifically in
the area of helping Warriors become “productive, responsible citizens in society.”

The following comments were provided by Warriors about how staff focused on accountability
over the Warrior population and other administrative responsibilities instead of the Warriors
themselves:
   •   One Warrior’s opinion was, “There is way too much accountability. We have two hours
       of physical training each day and very few people are able to even do PT [physical
       training]. So we end up sitting in the gym in pain.”
   •   Another Warrior recommended that physical training should be “on your own” and not
       used as an “accountability formation.”
   •   A third Warrior stated that he understood that accountability in a WTB is important, but
       asked, “Do you have to do PT [physical training] every day for accountability?”
   •   A Warrior stated that his squad leader was busy all the time and seemed to be too busy
       doing paperwork to take care of Warrior issues.
   •   During a group interview, several Warriors commented that the squad leaders were
       grossly overworked and were required to pull staff duty.



                                               70
     •   A Warrior who had previously been a staff member said, “In the Fort Drum WTB, they
         try to control everything; the more they try and control, the more things slip through their
         fingers.”
     •   Another Warrior stated simply, “The squad leader needs to take more time with the
         individual.”
Warriors also provided the following comments about how squad leaders were focused on
returning Soldiers to duty and were not versed on helping Warriors transition out of the Army:
     •   One Warrior believed that squad leaders treated WTB members like regular Soldiers,
         which did not help their transition. The Warrior expressed that there were WTB
         members who really needed help, but weren’t receiving the proper assistance because
         they were being treated like they were in a regular unit.
     •   Another Warrior commented, “This place is more like a boot camp than a place to heal.”
     •   A Warrior who was previously assigned to the Walter Reed WTB stated that Walter Reed
         was better suited to assist the Warriors who were getting out, while Fort Drum was great
         at helping the Soldiers transition back in [to the Army].
     •   A Warrior mentioned that squad leaders needed to be proactive with helping WTB
         members obtain employment, preferably in a job where they could gain skills that would
         help with their transition.
     •   A Warrior adamantly suggested, “Let me go to school to maximize my academic
         potential! All we do is wait for paperwork to sign and having to pass the time ultimately
         gets guys into trouble.”

“One Bad Apple Spoils the Whole Bunch”
The Warriors expressed concern with how Warrior infractions were handled by the WTB staff
and leadership. Specifically, infractions of WTB policies were dealt with by punishing the group
en mass instead of dealing with the individual violator(s).
Specific comments from Warriors concerning mass punishment included, but were not limited
to:
    • “The battalion [WTB] has a mass punishment mentality.”
    • “[The WTB should] punish the violators not the masses.”
    • “Treat each Soldier as an individual and stop the mass punishment.”
    • “Uniform Code of Military Justice 46 actions seem to be adjudicated in an appropriate
       manner; however, once they are given, mass policies are created to prevent others from
       committing offenses and that is ridiculous. Certain privileges like going to school during
       the duty day are forbidden after some people did not conduct themselves appropriately.
       This mass application of discipline is a result of a poor command climate in the unit.”
    • “Senior enlisted Soldiers are treated the same as the junior most troops with regard to
       mass punishment for infractions. For example, just because there was one instance of a




46
  The Uniform Code of Military Justice is the congressional code of military criminal law applicable to all
U.S. military members worldwide.




                                                         71
       Warrior being out of the area when she checked out on leave, now everyone (including
       senior enlisted) has to check in and out on leave in person.”

Military Customs and Courtesies
Military customs and courtesies ensure proper respect for the chain of command and build a
foundation for self-discipline. They include acts of respect and courtesy when dealing with other
people and have evolved as a result of the need for order, mutual respect, and the sense of
fraternity that exists among military personnel. Military customs and courtesies go beyond basic
politeness; they play an extremely important role in building morale, esprit de corps, discipline,
and mission effectiveness.
Warriors indicated that military customs and courtesies between staff and Warriors, as well as
among Warriors themselves, are not consistently adhered to, enforced, and are often outright
disregarded. The following were comments provided by Warriors during both group and
individual interviews:
   •   A Warrior commented that some of the staff were not respectful of the senior NCOs that
       were Warriors; and although they were not “in charge,” they were still NCOs and should
       be treated as such. He further stated that this behavior made the younger enlisted think
       that acting disrespectful was acceptable.
   •   A Warrior stated that customs and courtesies of the Army do not exist in this WTB. He
       explained that there is an “us against them” mentality in the unit, and the staff does not
       enforce customs and courtesies between the Warriors.
   •   Another Warrior said that some Warriors do not show due respect to the squad leaders in
       dress, posture, and attitude.
   •   A Warrior explained that the senior enlisted Warriors are treated the same as the junior
       enlisted Warriors. For example, to visit Educational Services on post, this senior enlisted
       Warrior was required to have a senior NCO staff escort him.
   •   Another Warrior stated that Warriors are considered to be “just patients,” and regardless
       of their rank, they get no respect. He provided an example of one Warrior who abused
       the privilege of calling to report departure on leave, resulting in all Warriors having to
       report in person.
   •   About customs and courtesies, a Warrior stated, “One day you are a senior NCO and the
       next day you are just a Soldier in formation.”

“Fire and Forget”
The majority of the Warriors assigned to the WTB were previously assigned to the 10th Mountain
Division or other Fort Drum units. Many of those Warriors had been medically evacuated from
theater or assigned to the WTB upon their unit’s return. Once in the WTB, the majority of the
Warriors said that their unit or rear detachment leadership had not made contact with them.

One Warrior commented, “I have had no contact with my former unit. They failed to process my
Purple Heart and that really bothers me.” Another Warrior gave the opinion that “they” make
contact only because they still have the Warrior’s gear and the Warrior will eventually have to
return that gear to that unit. When asked if his previous unit contacted him, another Warrior
answered, “Not at all, but they should! I have an award in my personnel file that is not mine and
I need to get that fixed.”


                                               72
During a group interview with officers and senior NCOs, when asked whether their previous unit
maintained contact with them, three out of four Warriors responded with negative comments,
which included:
   •   “I feel like I have fallen off the face of the earth.”
   •   “My unit is down range but they are still keeping contact with me.”
   •   “My unit treats me like dirt.”
   •   “No. I am having problems getting my Officer’s Evaluation Report and my medal.”

Preparation for Transition
It is important that each Warrior assigned or attached to the WTB receive adequate and
appropriate preparation to transition to productive, responsible citizens in society. However, at
the Fort Drum WTB, Warriors largely:
   •   Had no clear understanding of what a “successful transition” end-state from the WTB
       meant
   •   Described a lack of structured days with meaningful activities to prepare for transition to
       civilian life, to include not being able to attend resident educational courses or vocational
       training during the duty day
   •   Explained that unclear transition timelines resulted in lack of planning and preparation
       for transition to civilian life

Successful Transition
Preparation for a successful transition – whether returning to duty in the same MOS, in a new
MOS, or returning to civilian life as a productive member of society – was on the minds of the
majority of Warriors we interviewed. For many of these Warriors, the military and their MOS
were all they had known. For those who could no longer carry out their duties in their MOS due
to their condition or injuries, their concern about acquiring new skills and training to prepare for
the future either in the military or in the civilian world dominated their thoughts.

When Warriors were asked to describe their definition of a successful transition from the WTB, a
multitude of answers were provided. When it specifically came to successfully transitioning to a
civilian life, many were focused on either being enrolled in college courses or having jobs
solidified before they medically retired from the Army. However, many were concerned that
because of unknowns with their transition, this would not be the case. Their comments included:
   •   One Warrior commented that no one had thought about what skill sets an infantryman
       needed for a successful transition to the civilian world.
   •   Other Warriors whose MOSs were also in the infantry career field were concerned that
       the types of civilian jobs they were prepared for (policeman, fireman, prison guard)
       would not be available to them when they got out of the Army.
   •   Another Warrior was not ready to transition to civilian life because he was afraid of the
       “unknown unknowns” with getting out of the military. Having joined the military at age
       18, the military was all he had known.
   •   A Warrior said that he had no “plan B” and was unsure of what to do after the Army. He
       suggested that the WTB give Soldiers more guidance.




                                                 73
     •   Another Warrior stated that he could not define a successful transition because in his
         case, he could not make plans because of a lack of information. He was worried about
         what the future held and had no idea which direction his life would go. He had no home
         to move to and no future employment.
     •   Finally, a Warrior keenly observed and commented, “A transition unit is a transition unit.
         There should be different processes for different paths, but those processes are not in
         place yet [at the WTB].”

Activities to Prepare for Transition
The Warriors stressed the criticality of constructive transition activities as the foundation of a
successful transition whether returning to the same MOS, transitioning to a different MOS, or
leaving the military and returning to civilian life. The Warriors we interviewed expressed
concern that the WTB was not consistently affording them adequate, thoughtful, and reasonable
activities in support of their transitions.

Warriors who wanted to remain on active duty and either return to the same MOS or receive
training in another MOS expressed concern with their transition preparation:
     •   A Warrior returning to duty in the same MOS wanted refresher training in that MOS to
         ensure that his training and experience were still current.
     •   Another Warrior wanted to return to duty, but needed to cross-train in a new MOS, which
         required a security clearance. However, the Warrior was restricted from completing the
         paperwork until his MEB was complete. The Warrior said, “Being in limbo kind of
         sucks.”
     •   A third Warrior who could no longer perform in his current MOS said that no one had
         discussed with him the opportunity to reclassify to another MOS; instead, he was
         encouraged to medically retire.
     •   A Warrior wanted to transition to another MOS and stay in the Army, but had met
         challenges. He either did not qualify for certain positions or was too high of a rank to be
         moved into other positions. So, the Warrior felt forced to medically retire.
     •   Due to one Warrior’s condition, he could not remain in a combat MOS. Class sizes at
         Advanced Individual Training 47 kept him from getting the training for another MOS, so
         he would be medically retiring.

Warriors’ comments regarding the lack of constructive transition activities in preparation for
civilian life included but were not limited to:
     •   One Warrior commented that if he were to have a smooth transition, he would already be
         enrolled in college course so that school and work experiences would provide
         opportunities for future tangible employment. “Without the ability to go to school [while
         in the WTB], I am ‘stuck’ until I get out of here.”


47
  After Soldiers complete Basic Combat Training, they move to Advanced Individual Training (AIT), where they
learn the skills to perform their Army jobs. At AIT school, Soldiers receive hands-on training and field instruction
to make them experts in that specific career field.




                                                         74
   •   As previously mentioned in Observation C.5., WTB leadership expressed that Warriors
       could go to school during the duty day provided that they submit a plan showing that
       their classroom attendance would not impact their medical appointments. However,
       during a group interview, one Warrior stated that he knew of others who submitted plans
       to take courses during the duty day, but they were all rejected.
   •   A third Warrior commented that his work assignment at the Fort Drum museum did not
       match his transition plan to be a physical therapist. He also stated that he received no
       counseling to help toward his transition goal.
   •   Another Warrior “wished there were a landscaping job on post.” The Warrior was a
       “level-one certified” landscaper and wanted to pursue landscaping upon leaving the
       Army. He did not think that the WTB would allow him to have a landscaping job on post
       even though it would help his transition to civilian life.
   •   A Warrior commented that schooling would enable him to get a head start on completing
       his education once in the civilian world. The Warrior planned to be a foreign language
       teacher and possibly move into literature and language.

Transition Timelines
In addition to concerns over a lack of constructive activities for a successful transition, Warriors
were concerned with the lengthy process and the lack of clarity on steps and expected timelines
during their assignment or attachment to the WTB. The Warriors who expressed the biggest
concerns had been at the WTB for a period of time spanning six months to two-and-a-half years.

Warriors were experiencing and expressing added frustration because they were unaware of how
long they would be in the WTB, and therefore, could not always plan their transitions
accordingly. Comments from Warriors about unknown timelines included:
   •   “I have been here so long that I have missed four job opportunities. They need to move
       on people as quickly as possible in order to avoid this hover status that I have been in. I
       want to depart in a timely manner and recommend holding the unit leadership
       accountable for delays in Warriors’ departures.”
   •   “A year in the WTB is way too long! No one should have to wait more than 6 months,
       even guys with PTSD/TBI issues. Give me a timeline that I can work with and plan my
       life.”
   •   “Being in the WTB is like being in a holding company; I feel like I am in limbo because I
       do not know if I will be retained.”
   •    “Nothing happens here quickly.”
   •   “The biggest problem is the waiting and the not knowing.”
Warriors in a group interview also expressed concern about having no idea of their transition
dates. They added that without a firm, or even approximate date, they could not apply for
college or jobs. Another Warrior commented that her nurse case manager told her she might be
at the WTB for another 6 months, while a representative at the DVA said she might be there for
another year. The Warrior said that she was confused and frustrated and wished someone would
help her.




                                                 75
Health Care Services
There were multiple health care-related issues discussed in previous Observations that were also
addressed by Warriors. Warriors reported concerns about access to specialty medical care and
medication management, among other issues. Specifically, Warriors:
   •   Reported that access to specialty care (such as behavioral health and orthopedics) was not
       always timely
   •   Perceived that a use of multiple primary care managers hindered their continuity of care
   •   Provided instances of incomplete medical records possibly causing delays in evaluation
       board processing and transition to DVA care
   •   Feared that their needs for medication to manage pain resulted in being labeled a “junkie”

Access to Specialty Medical Care
Warriors reported that they were not receiving timely access to certain types of specialty medical
care. Access to behavioral health appeared to be the most challenging. Additional comments
from Warriors about access to specialty medical care included:
   •   A Warrior reported that her behavioral health specialist was not helping, stopped her
       medications, and was a terrible specialist. She requested another specialist, but was
       required to continue seeing the same one, which landed her in the hospital as an in-patient
       earlier this year.
   •   A different Warrior who had been at the WTB for about five months stated that it took
       him three to four weeks to get a neurology appointment and it took up to three months to
       get a pain management appointment.
   •   Another Warrior stated that the few times that he was able to access his orthopedic
       surgeon, the appointment went well. Although it was a long process, he was scheduled to
       see his orthopedic surgeon later in the month and was hopeful for assistance in healing
       his back.
   •   During an individual interview, a Warrior explained that there was a long wait for
       neurology appointments off-base, and there was too long of a wait for orthopedic
       appointments on-base; both of which led to frustration.
   •   A Warrior expressed concerns that he drove about 45 miles for a physical therapy
       appointment and had to wait an average of one month to get the appointments. He also
       stated he had been waiting over three weeks for a specialty follow-up appointment that
       was to be scheduled after his last surgery and his nurse case manager had not yet made
       the appointment.

Continuity of Care
Warriors expressed concerns about how changes to their primary care managers or other
providers impeded their continuity of care and their transition back to duty or to civilian life.
Warriors’ comments about continuity of care included:
   •   “I feel like I am starting over each time I see a new doctor. Seeing too many docs
       impedes my transition process.”
   •   “I believe that changing primary care managers too many times is the reason medical
       evaluation boards and medical retention boards are delayed.”




                                                 76
   •   “I keep getting bounced around, and constantly changing primary care managers makes
       the transition process choppy. It breaks the continuity of care, especially with pain
       management, because of the doctor’s reluctance to dispense medications until he has seen
       you a few times.”
   •   “If you have to go to sick call, you see another doctor, not your primary care manager.
       So, you have to explain everything all over again to another doctor.”
   •   “I’ve experienced a communication problem because my prior primary care manager did
       not record notes, so repetition of my case particulars to a new primary care manager was
       required.”
   •   “I’ve had 6 primary care managers over the last two and a half years, to include
       2 civilians and 4 military docs. It is difficult to recruit good civilian practitioners to come
       to Fort Drum because of the location and the fact that case loads are excessive.”

Medical Record Management
During individual and group interviews, Warriors acknowledged that obtaining complete
medical records to meet requirements for evaluation board processing and to avoid delays in
transitioning to DVA had been a continuing challenge. Warriors’ comments about challenges
with medical record management included:
   •   One Warrior explained that there was a problem with his medical records getting lost. He
       stated that he tracked them through Baghdad and into Kuwait, but after that, no one had
       any idea where his medical records were.
   •   Another Warrior stated that she had to track down her own medical records and packages
       because her nurse case manager was not doing her job.
   •   During an individual interview, a Warrior explained that after the DVA had already had
       his medical records for 5 months, they recently called and told him that they were
       missing a document from his medical records.
   •   A Warrior explained that he received a memorandum from the physical evaluation board
       stated that there were 8 items showing discrepancies within his medical records and
       narrative summaries.
   •   During a group interview, it was the group consensus that medical record management
       was a big problem, and it could take the patient administration division up to 4 weeks to
       pull one’s records. There was a big fear among the group that not everything that related
       to their combat injury or transition process was making it into their records. When
       specifically discussing off-base records, many group members explained that they paid
       up to 75 dollars (non-reimbursable) to obtain copies of their records to have confidence
       that all medical information was entered into their consolidated medical records.

Medication Management
Some of the WTB staff were concerned that Warriors were overmedicated. However, Warriors
contradicted this perception with anxiety that their needs for medication to manage pain resulted
in being labeled a “junkie.” Specifically, Warriors stated:
   •   “I have a fear of talking about a possible increase in my pain medications. When that
       happens, I feel like I am treated like a drug addict. Patients seeking an adjustment in
       their medications should not be treated like “junkies.” Plus, if I ask about adjusting my
       medications, I run the risk of being punished by being taken off of my meds altogether.”


                                                 77
   •   “I could not get pain medication for my back so I took drugs and drank a lot of alcohol to
       reduce the pain. A lot of guys here do drugs and drink in order to deal with the pain they
       are experiencing. If you ask for an increase in medications you are looked at as being a
       ‘junkie.’ So a lot of guys either suck it up or turn to drugs and alcohol to lessen the
       pain.”
   •   “I had difficulty getting my primary care manager to understand that I had some pain
       issues with my shoulders and bulging discs in my back and couldn’t get meds to help me
       with my pain.”
   •   “I am sick of the attitude that all of the Soldiers are drug addicts. I have a ‘bone-on-bone
       grinding action’ in my back, but the doctors won’t listen or increase my pain medications
       because it appears that I am drug-seeking.”
   •   “My former primary care manager was horrible. He had a bad attitude, rushed my
       appointments, and was quick to label me as a drug seeker.”

Comprehensive Transition Plans
Warriors largely agreed with WTB staff comments about the CTP; specifically that it was:
  • A “check the block” requirement that replaced leadership interaction; and
  • Too slow and cumbersome on the AKO platform.

“One Size Fits All”
Warriors agreed that the CTP was a “check the block” requirement that was not beneficial for all.
Warriors also stated that the CTP replaced leadership interaction and inputs were not always
necessary on a weekly basis. The following are additional comments provided by Warriors
about the CTP:
   •   “I believe that it is useless because unless you get a red marker, no one pays attention. I
       wrote down stupid stuff to see if anyone would catch it, and no one did. It is a check the
       block requirement and a waste of time, and if someone really wants to make it beneficial,
       the squad leaders should be having meaningful sit-down sessions with the Soldiers.”
   •    “I think it’s [the CTP’s] stupid. I fill it out weekly on my own on the computer, but no
       one talks to me about my weekly input.”
   •   “I see the CTP as a replacement for face-to-face counseling.”
   •   “No one reads them anyway and I’ve received no feedback.”
   •   “The goals and other things on your plan aren’t addressed. My question is, ‘who is really
       reading it anyhow?’”
   •   “I recommend that the on-line CTP be scrapped and replaced with a process that requires
       the squad leader, nurse case manager, and platoon sergeant to talk face-to-face with each
       other and us.”
   •   “There are a large number of ridiculously vague questions and there is never a product
       that results from filling out the questions contained in the CTP. I would change the
       process by leading Soldiers. As an NCO, I would use the elements of the CTP to assist
       me as a guide, but I would lead them [the Warriors]…not expect them to fill out a
       questionnaire.”
   •   “I would scratch the CTP system. It is a babysitting paper drill that does nothing for the
       Warriors. If they want to help, they should let us go to school or vocational training,
       which will result in our success after the Army.”


                                                78
Army Knowledge Online Platform
Warriors commented that having to complete the CTP online via the AKO platform was too slow
and cumbersome. Some Warriors shared that as a result of the problems they encountered with
AKO, they were discouraged from maintaining their CTPs altogether. Warriors’ comments
mirrored those made by staff.

Specifically, Warriors comments included that the AKO version of the CTP had problems and
could not be accessed from computers at home. As a result, Warriors had to access their CTPs
through squad leader laptops or at the SFAC or the United Service Organization. Other Warriors
commented that AKO had access problems, and didn’t always work. When asked whether he
had a CTP, one Warrior responded, “If it is the thing that we do on the internet, I have heard that
it is shoddy and that AKO is not helpful at all. So I choose not to participate in this [CTP]
process.”

Warrior Safety
Warriors provided multiple comments on various safety issues. Specifically, Warriors were
concerned that:
   •   They regularly drove while medicated
   •   They were unable to perform assigned duties because of medical conditions and
       prescribed medications
   •   Physical training events were outside of their medical profiles

Driving While Medicated
Safety was an important concern for Warriors, both for themselves and for fellow Warriors. Due
to their varying, complex, and distinct medical conditions, many of the Warriors were prescribed
numerous pain, sleep, and other medications that caused them to experience drowsiness and/or to
not be fully alert. To illustrate their concerns, Warriors provided numerous examples of how the
WTB imposed certain military duties, formations, or other activities requiring some Warriors to
drive motor vehicles while heavily medicated.

A Warrior provided the example of when the WTB scheduled a urinalysis for 100 percent of the
Warriors in the middle of the night. He lived off post and had to drive to the WTB while on
sleep and pain medications. He stated that he managed his night time medications based on a set
schedule, and when they gave an “order to show” for the urinalysis, he followed those orders,
causing him to violate the precautions listed on the warning label (do not operate a vehicle while
taking this medication) and drive while heavily medicated.

Another Warrior also observed that many of the Warriors were heavily medicated. He remarked,
“They drive to formations while heavily medicated. How safe is that? There are formations at
the end of the day and that places people on the roads again while medicated. With two




                                                79
formations as well as [Charge of Quarters] CQ 48 duties, I believe that Warriors’ medical profiles
are being violated.”

Other Warriors explained that they felt that staff needed to be more sensitive and understanding
with regard to Warrior profiles, specifically driving while medicated. One Warrior stated that
her profile only discussed opiate-based medications, but she took other medications that affected
her driving ability. But, the staff said that she could still drive, so she was unable to obtain post
transportation. When asked how the WTB could help his transition, another Warrior replied,
“Don’t hold grudges against Soldiers. I live 45 minutes away and must drive and it can be
difficult to make it to the base in the morning.”

Performing Assigned Duties
Warriors at the Fort Drum WTB were assigned military duties that they performed in addition to
their formations, medical processing, appointments, and other requirements. They expressed
concern that consideration of their individual medical conditions was not given when developing
and assigning those military duties.

One Warrior explained that in his experience, staff would not consider exempting a Warrior from
night duty even if they were taking certain medications. The Warrior stated that certain staff
even encouraged Warriors to not take sleep medications if they were required to stand night duty.
Another Warrior who had difficulty sleeping remarked that if Warriors failed to be on time for
formations, they would be punished with a night duty assignment at the barracks. He stated that
this seemed contrary to what was required for their healing and recovery. A third Warrior
explained that although he felt that CQ duty was “ridiculous,” they were required to “pull duty”
three times per week and sometimes over the weekends. He added that there were guys pulling
duty who were medicated and sometimes “could not remember where they were.”

Another Warrior stated that she personally experienced a situation where squad leaders did not
consider physical limitations of the wounded when assigning military duties. Specifically, the
WTB recently executed a barracks move and she was not offered any assistance, even though her
profile stated that she should not lift more than 20 pounds. She stated that the WTB should do a
better job screening personnel for WTB positions to make sure they are the right people for this
job.

Finally, during a group interview, Warriors shared that CQ duty was required for all Warriors;
even those who experienced problems with medications, physical stress, and exposure to
situations that may affect those with PTSD (e.g. a Soldier badly cutting himself in his barracks
room).




48
  Charge of Quarters (CQ) describes tasked duty in which a Service member guards the front entrance to the
barracks, and handles his unit’s administrative matters after hours.




                                                       80
Physical Training Events
Warriors’ eligibility for assignment or attachment to a WTU requires a temporary profile, or an
anticipated profile, for more than 6 months with duty limitations that preclude the Soldier from
training for or contributing to unit mission accomplishment. As such, the Warriors we
interviewed were given profiles by a medical professional that were consistent with the wounds,
illnesses, or injuries that brought them to the WTB.

Several Warriors mentioned their concerns about how staff violated, or at least failed to consider,
Warriors’ medical profiles. They also voiced their concerns about how violations of their
medical profiles opened them up to re-injury and/or further injury, creating the possibility of
prolonging their transition processes and adding to their time at the WTB. The following
comments were provided by Warriors about medical profile management:
   •   A senior Warrior explained that in his opinion, profile restrictions during physical
       training were “pushed to the limits.” For example, if the profile was “walk only,” staff
       required Warriors to walk on uneven ground around the soccer field. The Warrior
       commented that the leadership made their own interpretation of what a Warrior’s profile
       and corresponding restrictions meant.
   •   Another Warrior said that the staff asked him to do things that violated his profile. When
       a profile said that one cannot sit for more than 15 minutes, staff would say, “Then get up
       after 14 minutes.” The Warrior also stated that he understood that accountability in a
       WTB was important, but asked, “Do you have to do PT [physical training] every day for
       accountability? You are told that you need to take it easy, but then they treat us like we
       are all return to duty [Soldiers]. They are trying to run this unit to meet Army standards
       like a real unit.”
   •   A third Warrior questioned why Soldiers transitioning to civilian life had to go to
       physical training daily, especially those with neck braces, canes, or other profiles.
   •   A different Warrior commented that some Soldiers were on profiles restricting them to
       only walk about one-tenth of a mile before they were required to sit and rest. But, when
       this happened, the staff yelled at them for sitting.

A few Warriors had considered the issue so thoroughly they provided recommendations on how
to meet the intent of physical training while considering the physical limitations of the Warriors.
These recommendations included having Warriors complete physical training on their own
within their own limitations; and during a group interview, Warriors recommended assigning
trainers to adapt physical training for Warriors so they could meet physical fitness standards.

Family Concerns
Warriors stated that their families were a significant part of their healing and recovery and family
members were often not fully integrated into their transition. Specifically, Warriors expressed
that:
   •   A dedicated family member orientation was absent in the unit




                                                81
     •   Non-medical attendants 49 were generally discouraged, eligibility criteria were unclear,
         and reimbursements for those with non-medical attendants were delayed

Family Member Orientation
Warriors explained that personal support from their family members, significant others, and
friends was important to their overall healing and transition. Although many of the Fort Drum
WTB Warriors were from Fort Drum units and had personal support in the immediate area, other
Warriors were from different parts of the state and country and had no local support system.
Regardless of their personal situations, Warriors stressed the importance of having some sort of
personal support structure involved in their transition.

General comments about family support included ones made during a group interview, where the
consensus was that information was generally not provided to spouses and support for families
was lacking. During an individual interview, a Warrior said that the unit did not consider those
Warriors who did not have a support group in the immediate vicinity, and that there was no
thought given to communicating with and helping their families. It was the opinion of another
Warrior that the WTB was not meeting the families’ needs and specifically didn’t consider the
families who weren’t local.

Warrior stories included one who shared that her family had been not integrated into her
recovery and transition, and therefore, the family was sent home. Her spouse was never called
and there was no outreach from the WTB. The spouse had attempted to talk to people at the
WTB to obtain information about his wife, but the individuals spoken to would just say, “I don’t
know” when asked any questions. The Warrior stated that the entire process had put a terrible
strain on their marriage.

Another Warrior believed that his family would be more involved with his care if they were
close to Fort Drum, but they were in another state. He still thought it would be helpful if they
reached out to his family to at least offer support or suggestions for dealing with his conditions.

Several Warriors had suggestions for how to better involve families, significant others, and
friends into their recovery process. One Warrior recommended that the WTB involve the total
family (not just spouses) and be more supportive of the Soldiers who were single. Another
Warrior believed that spouses should be integrated into the process and more outreach should be
conducted so the spouses knew what the Soldiers were going through. Finally, a Warrior
suggested that there be more classes/groups for spouses and children of Warriors.

Non-Medical Attendants
It was apparent during multiple interviews that criteria for obtaining a non-medical attendant
were unclear, obtaining them was generally discouraged, and reimbursements for those with
non-medical attendants were delayed.


49
  When the need arises for non-medical care and assistance during a Warrior’s treatment at a medical treatment
facility, medical authorities will authorize a non-medical attendant to assist the Soldier.




                                                        82
For example, there appeared to be some misunderstanding of the program and what qualified a
Warrior to have a non-medical attendant. When asked about how his personal support structure
was involved in his activities at the WTB, a Warrior replied, “I am single and when my family
visited me I paid for them to come. I have no idea about the non-medical attendant program and
did not have one.”

Another Warrior reported that the WTB did not seem supportive of the non-medical attendant
program. This Warrior was also single and her family lived in New York City and was unable to
participate. The Warrior tried to get permission to have a family member become her non-
medical attendant, but the request was denied by the WTB. The Warrior added that she was not
provided an explanation as to why her request was denied.

Finally, during a group interview, several Warriors explained the frustrations they encountered
when trying to obtain reimbursements for their non-medical attendants. First, they were not
aware as to how non-medical attendants should be paid (through TRICARE or the Defense
Travel System); and second, they explained that reimbursements for non-medical attendants
could take up to three months.

Conclusion
Warriors provided positive comments about their access to medical care and certain aspects of
installation support. However, they also expressed many concerns about other aspects of their
recovery and transition that we believe warranted specific mention. Because several of these
themes were addressed in previous Observations, we are not making formal recommendations
about the Warriors’ concerns expressed in this section. However, we do recommend that the
Commanding General, 10th Mountain Division, Warrior Transition Command, Fort Drum
leadership, Fort Drum MEDDAC leadership and staff, and WTB management and staff review
the concerns voiced by Warriors to more effectively support their healing and transition.




                                               83
This Page Intentionally Left Blank




               84
Appendix A. Scope, Methodology, and
Acronyms
We announced and began this assessment on April 16, 2010. Based on our objectives, the
assessment was planned and performed to obtain sufficient evidence to provide a reasonable
basis for our observations, conclusions, and recommendations. The team used professional
judgment to develop reportable themes drawn from multiple sources, to include interviews with
individuals and groups of individuals, observations at visited sites, and reviews of documents.

We visited the Medical Department Activity (MEDDAC) and the 3rd Battalion, 85th Mountain
Infantry Regiment [hereafter, the Fort Drum Warrior Transition Battalion (WTB)] located at Fort
Drum, New York, from August 2-12, 2010. During our 2-week site visit to that location, we
observed battalion operations and formations; viewed living quarters, campus facilities, and
selected operations at the medical facility; and examined pertinent documentation. We also
performed meetings and interviews – ranging from unit commanders, staff officers, and WTB
staff, to civilian staff and contractors – as shown below:
  •   MEDDAC Commander and Sergeant Major              • Primary care managers
  •   Deputy Commander for Clinical Services           • Nurse case managers
  •   Deputy Commander for Administration              • Behavioral Health Clinical
  •   Deputy Commander for Nursing Services              Psychologists
  •   WTB Commander, Sergeant Major, and               • Behavioral Health Licensed Clinical
      Executive Officer                                  Social Workers
  •   WTB Operations and Personnel Officers            • Occupational Therapists
  •   WTB Surgeon                                      • Soldier and Family Assistance
  •   WTB Pharmacist                                     Center Director
  •   WTB Chaplain                                     • Physical Evaluation Board Liaison
  •   WTB Company Commanders                             Officer
  •   WTB First Sergeants                              • Ombudsman
  •   WTB Platoon Sergeants                            • Family Readiness Support Assistant
  •   WTB Squad Leaders                                • Families of Recovering Service
                                                         Members
Further, we performed interviews with WTB recovering Service members, to include
96 individual interviews with Soldiers, and 5 group interviews with additional Soldiers grouped
by rank. The 5 group interviews were comprised of the following participants:
  •   4 Army Officer/Senior Enlisted = 4 Active Component
  •   6 Senior Enlisted = 2 Active Component, 2 National Guardsmen, 2 Reservists
  •   8 Army E5 – E7 = 7 Active Component, 1 Reservist
  •   6 Army E1 – E4 = 6 Active Component
  •   2 Army E1 – E4 = 2 National Guardsmen

We prepared standardized sets of questions that were used during individual and group sessions,
which were tailored to the type or group of personnel being interviewed. Those interviews
primarily included but were not limited to recovering Soldiers and members of the Triad of Care



                                               85
– primary care managers, nurse case managers, and WTB squad leaders. The standardized
interview questions for these groups included among others, topics such as access to care, use of
Comprehensive Transition Plans, responsibilities for Triad of Care members, working
relationships amongst the Triad of Care members, and discipline issues within the WTB.

Use of Technical Assistance and Computer-Processed Data
We did not use computer-processed data to perform this assessment. However, analysts from the
DoD Office of the Inspector General, Deputy Inspector General for Audit, Quantitative Methods
and Analysis Division, used a simple random sample approach to determine the number of Army
Warriors in Transition (Warriors) we should interview at the Fort Drum WTB to obtain a
representative sample. The random sample was used to avoid any biases that might have been
introduced by selecting interviewees non-statistically.

The analysts used a list of Warriors identified by name, rank, and WTB company assignment
(Alpha Company, Bravo Company, and Headquarters Company), which we obtained from the
Fort Drum WTB. As of June 28, 2010, there were 300 Soldiers at the Fort Drum WTB,
comprising the total population from which we drew our random sample.

The analysts used a program called the Statistical Analysis System and its internal random
number generator to assign random values to each individual, then sorted all 300 Soldiers into
random number sequence. Using this method, the analysts calculated a sample size of
56 Warriors for individual interviews. The sample size is based on a 90 percent confidence
level, a planned margin of error of 10 percent, and the statistically conservative assumption of a
50 percent error rate.

The team used this approach to first determine whether any reportable themes (noteworthy
practices, good news, issues, concerns, and challenges) were identified by those most impacted
by their assignment to the WTB: the Warriors. We met and interviewed others – ranging from
unit commanders, staff officers, and WTB staff, to civilian staff and contractors – to corroborate
the identified themes or to identify other reportable themes not readily known to the Warriors.

On July 7, 2010, we provided the list of Warriors to be interviewed from our randomly generated
sample to the Fort Drum WTB. With a requirement of 56 interviews, we advised the Fort Drum
WTB that those 56 interview slots should be filled with Warriors from the primary list, assigned
values 1 through 65 in random order sequence until all interview slots were full. If the WTB was
unable to fill all 56 slots with the primary sample provided, we provided a list of 34 alternates
that could be used (for a total of 99 randomly selected Warriors). We further advised the Fort
Drum WTB that a justification must be provided for any individuals in that sequence that were
unable to attend an interview for mitigating reasons such as convalescent leave, annual leave,
medical appointments, physical impairments, logistical constraints, etc. Below are the results
from our interviews with individual Warrior’s at the Fort Drum WTB.




                                                86
Of the 99 Warriors statistically selected with random order numbers 1 through 99:
   •   46 Warriors from the primary list of 65 were interviewed;
   •   21 Warriors from the alternate list of 34 were interviewed; and
   •   32 Warriors were excused.
The Fort Drum WTB provided an acceptable excuse for all the Warriors who were unavailable
for the interviews. However, due to some confusion and miscommunication the WTB squad
leaders brought in 29 additional Warriors for interviews. As a result, we ended up interviewing a
total of 96 individual Army Warriors at the Fort Drum WTB. We believe that the information
obtained from the 67 individuals selected as part of our original random sample provided a
reasonable indication of the views of the total population, and we found that the views provided
by the additional 29 Warriors interviewed mirrored those of the statistically selected Warriors.

Acronym List
The following acronyms were used in this report.

AHLTA                 Armed Forces Health Longitudinal Technology Application
AKO                   Army Knowledge Online
CONUS                 Continental United States
CQ                    Charge of Quarters
CTP                   Comprehensive Transition Plan
DVA                   Department of Veterans Affairs
MEB                   Medical Evaluation Board
MEDDAC                Medical Department Activity
MOS                   Military Occupational Specialty
MTF                   Military Treatment Facility
NCO                   Non-Commissioned Officer
PDA                   Personal Digital Assistant
PDTS                  Pharmacy Data Transaction Service
PT                    Physical Training
PTSD                  Post Traumatic Stress Disorder
SFAC                  Soldier and Family Assistance Center
TBI                   Traumatic Brain Injury
TRICARE               Tri-Service Medical Care
WT                    Warrior in Transition
WTB                   Warrior Transition Battalion
WTC                   Warrior Transition Command
WTU                   Warrior Transition Unit




                                               87
This Page Intentionally Left Blank




               88
Appendix B. Summary of Prior Coverage
During the last 6 years, there has been a host of prior coverage of DoD and Department of
Veterans Affairs (DVA) health care services and management, disability programs, and benefits.
The Government Accountability Office (GAO), the Department of Defense Inspector General
(DOD IG), and the Naval Audit Service have issued 17 reports specific to DoD Warrior Care and
Transition Programs. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/PUBS/index.html. Naval Audit Service reports are not available over the
Internet.

GAO
GAO Report No. GAO-11-551, “Defense Health Care: DOD Lacks Assurance that Selected
Reserve Members Are Informed about TRICARE Reserve Select,” June 3, 2011

GAO Report No. GAO-11-572T, “Federal Recovery Coordination Program Enrollment,
Staffing, and Care Coordination Pose Significant Challenges,” May 13, 2011

GAO Report No. GAO-11-633T, “Military and Veterans Disability System: Worldwide
Deployment of Integrated System Warrants Careful Monitoring,” May 4, 2011

GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic Stress
Disorder Research and Incorporates Research Outcomes into Guidelines and Policy for Post-
Traumatic Stress Disorder Services,” January 24, 2011

GAO Report No. GAO-11-69, “Military and Veterans Disability System: Pilot Has Achieved
Some Goals, but Further Planning and Monitoring Needed,” December 6, 2010

GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and Monitoring
Units that Provide Outpatient Case Management, but Additional Steps Needed,” April 20, 2009

GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
Compliance with Personality Disorder Separation Requirements,” October 31, 2008

GAO Report No. GAO-08-635, “Federal Disability Programs: More Strategic Coordination
Could Help Overcome Challenges to Needed Transformation,” May 20, 2008

GAO Report No. GAO-08-615, “DOD Health Care: Mental Health and Traumatic Brain Injury
Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record Review
Policies Needed,” May 30, 2008

GAO Report No. GAO-08-514T, “DOD and VA: Preliminary Observations on Efforts to
Improve Care Management and Disability Evaluations for Servicemembers,” February 27, 2008




                                             89
GAO Report No. GAO-07-1256T, “DOD and VA: Preliminary Observations on Efforts to
Improve Health Care and Disability Evaluations for Returning Servicemembers,” September 26,
2007

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DOD Needs to Identify the
Factors Its Providers Use to Make Mental Health Evaluation Referrals for Servicemembers,”
May 11, 2006

DOD IG
DOD IG Report No. SPO-2011-004, “Assessment of DOD Wounded Warrior Matters – Fort
Sam Houston,” March 17, 2011

DOD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DOD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force on
Mental Health,” April 15, 2008

Army
Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition Program,”
October 21, 2010

Navy
Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance Management
Program - Preseparation Counseling Requirement,” September 15, 2009

Naval Audit Service Report No. N2009-0009, “Department of the Navy Fisher Houses,”
November 4, 2008




                                             90
Appendix C. Reporting Other Issues
We are performing the Assessment of DoD Wounded Warrior Matters at multiple Army
locations and plan to report on each location separately. This report focused on whether the
programs for the care, management, and transition of Warriors in Transition at the Fort Drum
Warrior Transition Battalion (WTB), Watertown, New York, were managed effectively and
efficiently.

We also plan to report on issues, concerns, and challenges that were common amongst most, if
not all, Army Warrior Transition Units at the conclusion of our Army site visits. That report or
multiple reports will be provided to appropriate organizations to provide information on or
identify corrective actions addressing those issues, concerns, and challenges. Those
organizations may include but are not limited to the Office of the Deputy Under Secretary of
Defense for Wounded Warrior Care and Transition Policy; the Assistant Secretary of the Army
for Manpower and Reserve Affairs; the U.S. Army Medical Department, Office of the Surgeon
General; and the U.S. Army Medical Command, Warrior Transition Command.

This appendix captures issues, concerns, and challenges we identified at the Fort Drum WTB
(with corresponding page references noted) that may likely be included in an additional report(s).
We may issue an additional report(s) before the conclusion of our Army site visits if we consider
these other matters of interest urgent.

                         Table 1. Potential Items for Future Reports

                                                                                    Report
                       Issue, Concerns, and Challenges
                                                                                  Reference(s)
 Warrior Access to Specialty Medical Care                                         Page 19, 72
 Medication Management for Warriors                                               Page 22, 73,
                                                                                  74
 Armed Forces Health Longitudinal Technology Medication Module Interface          Page 24
 Definition of a Successful Transition End-State for Warriors                     Page 31, 69-
                                                                                  71
 Comprehensive Transition Plans (Requirements and Administration)                 Page 51-54,
                                                                                  74-75
 Non-Medical Attendant Criteria                                                   Page 78
 Eligibility of Warriors for Warrior Transition Units                             Page 41
 Experience, Selection, and Training of Some Staff                                Page 38
 Warriors Safety, Profiles and Medical Recommendations                            Page 45, 75
 Medical Records Management for Warriors                                          Page 73
 Additional Post-Traumatic Stress Disorder and Traumatic Brain Injury Training    Page 38



                                                 91
This Page Intentionally Left Blank




               92
Appendix D. Army Guidance for Warrior
Transition Units
Army guidance for the care and management of Warriors is contained in the “Warrior Transition
Unit Consolidated Guidance (Administrative),” March 20, 2009 (hereafter, “Consolidated
Guidance”). It was revised in March 20, 2009 to update policies and guidance for the care and
management of Warriors. According to the Consolidated Guidance, a Warrior is a Soldier who
is assigned or attached to a Warrior Transition Unit (WTU) whose primary mission is to heal.

The Consolidated Guidance addresses specific policy guidance regarding assignment or
attachment to a WTU, the process for the issuance of orders to Soldiers, and other administrative
procedures for Soldiers being considered for assignment or attachment to a WTU. The
publication also summarizes existing personnel policies for family escort, non-medical attendant,
housing prioritization, leave, and other administrative procedures for Soldiers assigned or
attached to a WTU. Further, it provides information on the Physical Disability Evaluation
System for Soldiers processing through this system.

Pertinent Federal statutes, regulations, and other standards governing these programs and
services are cited throughout the Consolidated Guidance and are collated in a reference section.
The document also states that, previously, there was no overarching Army collective or
regulatory administrative guidance for WTUs.

The authority for WTUs is provided by:
   •   Department of the Army EXORD [Execute Order] 118-07 Healing Warriors,
       June 21, 2007
   •   Department of the Army FRAGO [Fragmentary Order] 1 to EXORD 118-07 Healing
       Warriors, August 16, 2007.
   •   Department of the Army FRAGO 2 to EXORD 118-07 Healing Warriors,
       December 14, 2007.
   •   Department of the Army FRAGO 3 to EXORD 118-07 Healing Warriors, July 1, 2008.
The overview of the WTU program is stated as:
   •   Vision – to create an institutionalized, Soldier-centered WTU program that ensures
       standardization, quality outcomes, and consistency with seamless transitions of the
       Soldier’s medical and duty status from points of entry to disposition.
   •   Goal – to expeditiously and effectively evaluate, treat, return to duty, and/or
       administratively process out of the Army, and refer to the appropriate follow-on
       healthcare system, Soldiers with medical conditions.
   •   Intent – to provide Soldiers with optimal medical benefit, expeditious and comprehensive
       personnel and administrative processing, while receiving medical care. The Army will
       take care of its Soldiers through high quality, expert medical care. For those who will
       leave the Army, the Army will administratively process them with speed and compassion.
       The Army will assist with transitioning Soldiers’ medical needs to the Department of
       Veterans Affairs for follow-on care.



                                               93
The objectives of the WTU program are stated as:
     •   “Address and ensure resolution on all aspects of personnel administration and processing
         for the WT [a Warrior] from points of entry through disposition, to include processing
         through the Physical Disability Evaluation System (PDES). Final disposition occurs
         when the WT is determined/found medically cleared for duty or the PDES process is
         complete, including appeals.”
     •   “Address and ensure resolution on the administrative aspect of medical management for
         the WT, including Tri-Service Medical Care (TRICARE) and/or Veterans Health
         Administration follow on medical care.”
     •   “Address and ensure resolution on command and control (C2), including logistical
         support, for the WT assigned or attached to garrison units, Medical Treatment Facilities
         (MTF), Warrior Transition Units (WTU), and Community-Based Warrior Transition Unit
         (CBWTU).” 50
     •   “Address and ensure resolution on the accountability and tracking of the WT in real time
         as he/she progresses through the WT process and if necessary, the PDES process.”
The Mission Essential Task List of the WTU program states that the Army will–
     •   “Provide Command/Control and Administrative Support (including pay) trained to focus
         on special needs of WT Soldiers.”
     •   “Provide high quality, expert medical care, and case management support - Primary Care
         Provider, Case Manager, Behavioral Health, Specialty Providers.”
     •   “Administratively process with speed and compassion those who will leave the Army.”
     •   “Facilitate transition of separating and REFRAD’ing [Release From Active Duty]
         Soldiers to the VHA [Veterans Health Administration] or TRICARE for follow-on care.”
The WTU concept of operations is stated as:
     •   “Provide Soldiers high-quality living conditions.”
     •   “Prevent unnecessary procedural delays.”
     •    “Establish conditions that facilitate Soldier’s healing process physically, mentally, and
         spiritually.”
     •   “Provide a Triad of Warrior Support that consist of Platoon Sergeant/Squad Leader, Case
         Manager (CM), and Primary Care Manager (PCM), working together to ensure advocacy
         for WT Soldiers, continuity of care and a seamless transition in the force or return to a
         productive civilian life.”




50
  Community-Based WTUs are primarily for Reserve Component Soldiers. Community-Based WTU is a program
that allows Warriors to live at home and perform duty at a location near home while receiving medical care from the
Tri-Service Medical Care network, the Department of Veterans Affairs, or Military Treatment Facility providers in
or near the Soldier’s community.




                                                        94
Appendix E. 10th Mountain Division Comments




                     95
96
Fort Drum Medical Department Activity and
Warrior Transition Battalion Comments




                      97
98
99
100
101
102
103
104
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              400 Army Navy Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Arlington, VA 22202-4704





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
